<html>
<title> - SEA ISLAND AND BEYOND: STATUS REPORT ON THE GLOBAL PARTNERSHIP AGAINST WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 108-675]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-675

 SEA ISLAND AND BEYOND: STATUS REPORT ON THE GLOBAL PARTNERSHIP AGAINST 
                      WEAPONS OF MASS DESTRUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 15, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
96-631                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    10
Bolton, Hon. John R., Under Secretary of State for Arms Control 
  and International Security, U.S. Department of State, 
  Washington, DC.................................................    12
    Prepared statement...........................................    16
    G-8 Action Plan on Nonproliferation..........................    22
    G8 Global Partnership Annual Report, G8 Senior Group, June 
      2004.......................................................    25
Bronson, Ms. Lisa, Deputy Under Secretary of Defense for 
  Technology Security Policy and Counterproliferation, U.S. 
  Department of Defense, Washington, DC, statement submitted for 
  the record.....................................................    67
Brooks, Hon. Linton F., Administrator, National Nuclear Security 
  Administration [NNSA], U.S. Department of Energy, Washington, 
  DC.............................................................    39
    Prepared statement...........................................    41
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
    Prepared statement...........................................     3
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     5

                                 (iii)

  

 
SEA ISLAND AND BEYOND: STATUS REPORT ON THE GLOBAL PARTNERSHIP AGAINST 
                      WEAPONS OF MASS DESTRUCTION

                              ----------                              


                         TUESDAY, JUNE 15, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Biden, Feingold, and Bill Nelson.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee meets today to hear 
testimony on the G-8 summit recently concluded at Sea Island, 
Georgia, and the future of the Global Partnership Against the 
Spread of Weapons and Materials of Mass Destruction.
    We are blessed to have our dear colleague, Senator Pete 
Domenici, who has worked so hard in these areas, before us this 
morning. I conferred with the distinguished ranking member, 
Senator Biden. We will defer our opening statements until after 
Senator Domenici's testimony, because he has responsibilities 
to chair a committee of his own. We are delighted that you are 
here, and we would like for you to proceed with your testimony.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Well, let me say I am pleased to do that. 
But first let me say to you and Senator Biden, I am very 
hopeful that because you have taken this issue, and clearly 
have significant jurisdiction, that you will proceed and this 
will not be the last event by this committee. It is clear that 
things are not going right, and I will talk a little bit about 
why, but I think it is imperative that you insist that the 
executive branch continue to handle this matter with real 
dispatch.
    So let me start. Senator Lugar and Senator Biden, I thank 
you for inviting me to provide the opening testimony at this 
hearing. The subject of your hearing is of great personal 
importance to me. I have valued your leadership and partnership 
in working against the threat of weapons. Together with Senator 
Biden, just a few weeks ago we authored a comprehensive 
amendment on Global Clean Out of Nuclear Materials. This 
legislation provides new authority in the global fight against 
terrorism and against the threat that terrorism will use 
nuclear or radiological materials against us or anywhere in the 
world to destroy the foundations of freedom.
    The events of September 11 demonstrate the lengths to which 
terrorists would go to attack our own soil. We need to 
constantly remember that an attack using even a crude nuclear 
weapon could lead to 100 times the casualties which were 
suffered on September 11. Nuclear nonproliferation is a deadly 
serious business and those who do not take it so are fools.
    I was, as you also were, watching the information flowing 
out of the recent Sea Island G-8 summit meeting. Although 
positive agreements were announced, I have yet to hear that 
progress on nuclear proliferation was as dramatic as I had 
hoped or as dramatic as the world needs. I find the outcome 
quite disappointing. There has been progress in this vital 
area, but certainly not as rapid as we need.
    Creation by Secretary Abraham of the Global Threat 
Reduction Initiative is one positive step. Another is the 
President's Proliferation Security Initiative. Progress in 
Libya has been dramatic. The HEU deal that, incidentally, I 
rescued in 1999 by endorsing a $325 million infusion of funds, 
continues to reduce stockpiles of HEU, a prime concern for 
proliferation.
    But more needs to be done. Leading up to this summit, there 
was no shortage of calls for decisive action. I hope that 
recent Senate acceptance of the global cleanup package would 
add focus and emphasis on the importance of treating 
proliferation of nuclear weapons. Thirteen Senators joined in 
sponsoring it, including the chairman and ranking members of 
your committee, Armed Services, and Energy. If ever we had the 
right people to do something significant, we do have on this 
bill.
    Of particular frustration to me is the very slow progress 
on plutonium disposition. After I began that program with an 
infusion of $200 million several years ago, the program has 
been blocked by disagreement over liability provisions. Why a 
program of this much global importance should be blocked by 
something as basic as liability remains beyond me. I have been 
amazed that the leadership of the United States and Russia 
cannot resolve this issue. Failure to resolve this issue is 
simply not consistent with the urgency that the administration 
has attached to nuclear proliferation. Good proposals for the 
resolution have been circulated, but not accepted so far.
    This same liability dispute impacts other programs as well 
and has blocked progress on the Nuclear Cities program. If you 
like it or not, it would seem that it should not be blocked, as 
it has been. President Bush has emphasized the immense threat 
posed by weapons of mass destruction. I wonder if he has been 
advised that the liability issue is preventing destruction of 
enough plutonium for about 10,000 weapons. That is what the 
plutonium amount that we put the money in in an Appropriations 
Committee without any authorizing. We just went and told the 
Appropriations Committee what it would do, and you would not 
believe their response. They put in both the money for the HEU 
and the money for plutonium.
    Perhaps your committee could discuss this liability issue 
with the Honorable John Bolton when he testifies in a few 
minutes. You might ask him why, after plutonium disposition was 
discussed in previous G-8 summits, it was omitted from 
agreements at Sea Island. I submit that Mr. John Bolton, who 
has been assigned to negotiate this, has a very heavy 
responsibility and I hate to say that I am not sure to this 
point that he is up to it. I am not sure that he attaches the 
significance to this that the two of you and the Senators that 
I told you were on this bill--I do not think he attaches the 
significance that we do. Perhaps he can tell you how he does 
and why he has not been able to produce an agreement.
    I regret saying that, but I recall vividly when we did not 
have enough power, enough so-called horsepower, to get this 
done, and all of a sudden it was indicated by the State 
Department that he was the man, that he had great authority, 
that they needed him because he was the right kind of person. 
Well, I submit he ought to tell you why he has been unable to 
do this.
    You know what the liability issue is. It ought to be 
resolved. If he cannot do it, somebody ought to be put in his 
place that will do it. If he does not think it is important 
enough to solve this issue of liability, then I submit that you 
ought to get somebody that can. I regret saying this, but it is 
too long for plutonium to be sitting around after an agreement 
is made when 10,000 nuclear devices can be built by it. It is a 
giant step forward and in my opinion, Senators, it ought to be 
done. I hope that you will see to it that the right kind of 
emphasis will be given to this.
    That is my testimony and I will leave a copy of it for you 
in the event you did not get my words.
    [The prepared statement of Senator Domenici follows:]

             Prepared Statement of Senator Pete V. Domenici

    Senator Lugar and Senator Biden, I thank you for inviting me to 
provide the opening testimony at this hearing. The subject of your 
hearing is of great personal interest to me.
    Senator Lugar, even before our days working with Senator Nunn on 
the original Cooperative Threat Reduction legislation in 1991 and our 
work on the Defense Against Weapons of Mass Destruction Act in 1996, 
I've valued your leadership and partnership in working against the 
threat of these weapons.
    Senator Biden, I have appreciated your leadership and assistance in 
jointly crafting vital pieces of legislation. Together with Senator 
Lugar, we introduced the Nuclear Nonproliferation Act in 2002. And just 
a few weeks ago, we authored a comprehensive amendment on Global Clean 
Out of Nuclear Materials.
    These legislative approaches provide vital new authorities in the 
global fight against terrorism and against the threat that terrorists 
will use nuclear or radiological materials against us or anywhere in 
the world to destroy the foundations of freedom.
    The events of September 11, 2001 demonstrated the lengths to which 
terrorists would go to attack us on our own soil. We need to constantly 
remember that an attack using even a crude nuclear weapon could lead to 
one hundred times the casualties we suffered on September 11. Nuclear 
nonproliferation is a deadly serious business.
    I was, as you also were, watching the information flowing out of 
the recent Sea Island G-8 summit meeting. Although positive agreements 
were announced, I have yet to hear that progress on nuclear 
nonproliferation was as dramatic as I had hoped or as dramatic as the 
world needs. I find the outcome quite a disappointment.
    But progress, albeit not as rapid as I wish, is happening and there 
have been significant developments in this vital area. The President 
highlighted the risk associated with a nuclear or radiological 
terrorist attack in his National Defense University speech in February. 
His action was followed by the May announcement by Secretary Abraham of 
the Global Threat Reduction Initiative. Progress in Libya has been 
dramatic.
    The ``10 plus 10 over 10'' Global Partnership, championed by the 
President and announced at a previous summit, was an important step. It 
offers new hope for addressing weapons of mass destruction in the 
former Soviet Union.
    The President's Proliferation Security Initiative, launched about a 
year ago, is another positive step. I welcome the news from Sea Island 
that more nation's have joined this initiative.
    The HEU deal continues to reduce stockpiles of HEU, a prime concern 
for proliferation. Programs like the Initiatives for Proliferation 
Prevention, and the Materials Control program are advancing the fight 
against nuclear proliferation. But more needs to be done.
    Leading up to this Summit, there was no shortage of calls for 
decisive action, including an excellent piece by Senator Nunn. New 
reports from Harvard, sponsored by the Nuclear Threat Initiative, 
emphasized the need for more comprehensive controls over nuclear 
materials. To date, we have fully secured only about a quarter of 
Russia's nuclear materials.
    I hoped that Senate acceptance of the Global Clean Out package in 
mid-May would add focus and emphasis on the importance of treating 
proliferation of nuclear materials as one of the greatest threats to 
global peace and stability. That package identified removal and 
security of nuclear materials and equipment as a top national security 
issue. Thirteen Senators joined in sponsoring it, including the 
chairmen and ranking members of your committee, Armed Services and 
Energy.
    Of particular frustration to me is the slow progress on plutonium 
disposition. After I began that program with an infusion of $200 
million several years ago, the program has been blocked by disagreement 
over liability provisions. Why a program of this much global importance 
should be blocked by something as basic as liability remains beyond me.
    I have been amazed that the leadership of the United States and 
Russia can not resolve this issue. Failure to resolve this issue is 
simply not consistent with the urgency that the administration has 
attached to nuclear nonproliferation. Good proposals for resolution 
have been circulated, but not accepted so far. This same liability 
dispute impacts other programs as well, and has blocked progress on the 
Nuclear Cities programs.
    President Bush has clearly emphasized the immense threat posed by 
weapons of mass destruction. I wonder if he has been advised that 
liability issues are preventing destruction of enough plutonium for 
about 10,000 weapons. Perhaps your committee could discuss this 
liability issue with the Honorable John Bolton when he testifies in a 
few minutes. You might also ask him why, after plutonium disposition 
was discussed in previous G-8 summits, it was omitted from agreements 
at Sea Island.
    Last December, I spoke at the Woodrow Wilson Center's conference 
celebrating the 50th Anniversary of President Eisenhower's Atoms for 
Peace speech. I included a list of major unmet challenges in nuclear 
nonproliferation, challenges that must be met if we are to realize the 
potential of nuclear energy for the good of mankind:

  <bullet> the need for improved controls and reductions in tactical 
        nuclear weapons,

  <bullet> inadequate controls over Russian fissile materials,

  <bullet> poor controls over radioactive sources around the world,

  <bullet> reactors fueled with Highly Enriched Uranium, and

  <bullet> our continued emphasis on Russia when we need a focus on 
        global action.

That list remains valid today.

    The recent initiatives, recent legislation, and the Sea Island 
agreements are steps in the right direction. But we need more than 
steps. I have to say with regret that Sea Island did not make the giant 
strides on nuclear nonproliferation that our nation and the world need.

    The Chairman. Well, thank you very much, Senator. I think 
the message is loud and clear, and we appreciate your coming 
personally to deliver it. Likewise, we appreciate working with 
you in the larger partnership, which spans several committees, 
as you have acknowledged. We will be busy in this committee 
working on the agenda you have mentioned.
    Senator Domenici. Senator Biden, I want to thank you also 
for your involvement in this. This makes this issue not a 
partisan issue. It is too vital, too important, for it to be 
partisan. It just must be done. Thank you.
    Senator Biden. May I make one comment before you leave, 
Pete. First of all, thank you. Thank you for the passion you 
bring to this. Quite frankly, there is a real unmet need here 
and there is a plan, there is a solution. You getting as deeply 
involved in it--you have always been deeply involved in it--but 
as vocal as you are now, is really worthwhile.
    I have not discussed this with the chairman, but one of the 
things that I think maybe would be a useful thing, because I 
personally observed the effect the chairman had on President 
Bush on another matter relating to a threat reduction 
initiative, where the President actually changed the policy 
that the administration was following after listening to the 
chairman, because the President had an open mind about it. He 
has a thousand things on his mind and once the chairman focused 
him, within 2 weeks something that had been bottlenecked for 
some time changed.
    I think it would be, quite frankly, useful because I found 
every time we have importuned the President on an important 
issue he has listened. It might be useful maybe for me not to 
be involved or be involved, but for you and the chairman and 
possibly me to ask to see the President. I think this is so 
important. This is one of those things that if we actually 
asked for a meeting with the President, 15 minutes of his time, 
because once he focuses, if he decides, he is the guy that can 
move those pieces. We cannot move the negotiating process, but 
he can.
    So I just raise that for your consideration. Again, I would 
not ordinarily say that, except I watched him. I watched the 
chairman in a meeting with principals who did not have the same 
view, debate it openly in front of the President, and the 
President make a choice that changed things. So I just raise 
that for your consideration.
    Senator Domenici. Thank you very much.
    The Chairman. Thank you, sir.
    Senator Domenici. I will try my best.
    The Chairman. Let me indicate at this point, I will 
commence with my opening statement, and then I will recognize 
Senator Biden, and then we look forward to a panel of 
distinguished witnesses that will include the Honorable John R. 
Bolton, Under Secretary of State for Arms Control and 
International Security in the Department of State, and the 
Honorable Linton F. Brooks, Administrator of the National 
Nuclear Security Administration in the Department of Energy.

        OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN

    As I mentioned earlier, today the committee meets to hear 
testimony on the G-8 summit recently concluded at Sea Island, 
Georgia, and the future of the Global Partnership Against the 
Spread of Weapons and Materials of Mass Destruction. In June 
2002 at Kananaskis, Canada, the G-8 announced the creation of 
the Global Partnership to confront the threat posed by the 
potential proliferation of nuclear, chemical, and biological 
weapons and materials emanating from the former Soviet Union.
    The European Union, Canada, France, Germany, Italy, Japan, 
Russia, and the United Kingdom pledged to match United States 
funding of nonproliferation programs: $10 billion over the next 
10 years. If all pledges are realized, the resources available 
to prevent proliferation from the former Soviet Union would 
effectively double. This would allow for an acceleration of the 
work of the Nunn-Lugar program and related programs of the 
Departments of State and Energy which have been safeguarding 
and destroying weapons and materials of mass destruction in the 
former Soviet Union now for more than a decade.
    To date the weapons systems deactivated or destroyed by the 
United States under these programs include: 6,312 nuclear 
warheads, 535 ICBMs, 459 ICBM silos, 11 ICBM mobile missile 
launchers, 128 bombers, 708 nuclear air-to-surface missiles, 
408 submarine missile launchers, 496 submarine-launched 
missiles, 27 nuclear submarines, and 194 nuclear test tunnels.
    In addition, 260 tons of fissile material have received 
either comprehensive or rapid security upgrades. Security 
upgrades have been made at some 60 nuclear warhead storage 
sites; 208 metric tons of highly enriched uranium [HEU] have 
been blended down to low enriched uranium [LEU]; 35 percent of 
Russia's chemical weapons have received security upgrades.
    Joint United States-Russian research is being conducted at 
49 former biological weapons facilities and security 
improvements are under way at four biological weapons sites. 
The International Science and Technology Center operated by the 
State Department has engaged 58,000 former weapons scientists 
at 765 institutes in peaceful work, and the International 
Proliferation Prevention Program has funded 750 projects 
involving 14,000 former weapons scientists and created some 580 
new peaceful high-tech jobs.
    Despite this impressive record of achievement, there is 
clearly much work to be done. For example, some 340 metric tons 
of fissile material are still awaiting security upgrades. 
Approximately 70 warhead storage facilities are awaiting 
security upgrades. Negotiations with Russia have not produced 
an agreement on the destruction of 68 metric tons of plutonium, 
the plutonium that Senator Domenici just mentioned, in the 
United States and Russia. Also, 5,400 metric tons of nerve 
agent await destruction; and 62 nuclear-powered submarines 
await destruction. Security upgrades are still needed in 20 
sites housing dangerous biological pathogens. And in the future 
some 35,000 former nuclear weapons experts will be cut from the 
Russian nuclear program and will be seeking work.
    We have a window of opportunity to address these threats. 
We must take advantage of this time in history to destroy these 
weapons that threaten not only the American people and the 
Russian people, but people throughout the world.
    Unfortunately, recent pledges made by our G-8 partners are 
apparently about $3 billion below the commitments made at 
Kananaskis in 2002. Moreover, few of the funds pledged by other 
members of the G-8 have been allocated for actual Global 
Partnership projects. Our allies must turn their pledges into 
projects.
    Funding shortfalls are not the only problem delaying 
progress by the Global Partnership. Russia has refused to 
provide the necessary access to partnership dismantlement 
sites. Moscow has not granted partnership participants tax-free 
status on their assistance. In addition, the lack of adequate 
liability protections plagues the Global Partnership, as it has 
the Plutonium Disposition Program.
    If the Global Partnership is to be successful, Russia must 
be forthcoming with basic programmatic protections. Despite 
repeated requests from Moscow for dismantlement help, Russian 
leaders continue to erect roadblocks that complicate the 
delivery of assistance. In addition, President Putin has not 
yet submitted the Nunn-Lugar Umbrella Agreement to the Duma and 
Federation Council for approval. This agreement, if approved, 
would codify the tenets under which the Nunn-Lugar program 
operates in Russia.
    Senator Biden and I have sent a letter to the Russian 
Minister of Defense and Foreign Affairs urging prompt action on 
the agreement. The Kremlin must understand that failure to 
approve this agreement places the United States-Russian 
cooperation at risk.
    Despite these trouble spots, President Bush made important 
progress at Sea Island with respect to the Global Partnership. 
Australia, Belgium, the Czech Republic, Denmark, Ireland, New 
Zealand, and South Korea joined as donors. They joined Norway, 
Poland, Switzerland, Finland, and Sweden as non-G-8 nations 
participating in the Global Partnership. The G-8 agreed to 
coordinate activities in other states where there have been 
weapons of mass destruction programs, such as Libya and Iraq.
    And G-8 leaders embraced President Bush's proposal on 
tightening the loopholes that currently exist in 
nonproliferation treaty regimes. Specifically, the leaders 
agreed to ban the transfer of civil nuclear technologies to 
countries that have not concluded an additional protocol with 
the IAEA and to create a special committee of the IAEA to study 
how to further tighten verification and safeguard measures.
    The leaders also supported an effort to require countries 
under investigation by the IAEA to rescue themselves from IAEA 
board decisions. In addition, they agreed to a one-year freeze 
on new transfers of enrichment and reprocessing technology to 
states that do not currently possess it.
    Just prior to Sea Island, Secretary of Energy Abraham 
announced the creation of the Global Threat Reduction 
Initiative in a speech in Vienna. It will secure high-risk 
nuclear materials around the world by consolidating and 
accelerating retrieval efforts and by completing an inventory 
of materials worldwide to rapidly identify any gaps in non-
proliferation efforts. I applaud this initiative and look 
forward to working closely with the Secretary to ensure that it 
has sufficient funding.
    Another important announcement was made in Moscow last 
month. Russia has agreed to join the Proliferation Security 
Initiative, the PSI. Last year President Bush established the 
PSI, a multilateral effort designed to interdict weapons and 
materials of mass destruction. Two weeks ago, more than 60 
nations met to celebrate the first anniversary of the PSI and 
to underscore their commitments to preventing rogue states and 
non-state actors from acquiring weapons of mass destruction.
    Today it is my pleasure to welcome two distinguished panels 
to discuss U.S. non-proliferation policy. We have heard from 
our good friend and colleague Senator Pete Domenici, long a key 
advocate in Congress for strong and innovative non-
proliferation policies. We have enjoyed working closely with 
him for more than 10 years on these important matters. His 
leadership was crucial to the establishment of the Plutonium 
Disposition Program and numerous other initiatives. Just 
recently, his amendment lent congressional support to the 
Global Threat Reduction Initiative.
    The second panel is now before us. From these gentlemen we 
will hear oversight on important aspects of our non-
proliferation policies. We welcome John Bolton, Under Secretary 
of State for Arms Control and International Security, and 
Ambassador Linton Brooks, Administrator of the National Nuclear 
Security Administration. We thank all of our witnesses for 
coming here today for this important hearing. We look forward 
to hearing from the panel.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today the committee meets to hear testimony on the G-8 summit 
recently concluded at Sea Island, Georgia, and the future of the Global 
Partnership Against the Spread of Weapons and Materials of Mass 
Destruction.
    In June 2002, at Kananaskis, Canada, the G-8 announced the creation 
of the Global Partnership to confront the threat posed by the potential 
proliferation of nuclear, chemical, and biological weapons and 
materials emanating from the former Soviet Union. The European Union, 
Canada, France, Germany, Italy, Japan, Russia, and the United Kingdom 
pledged to match U.S. funding of non-proliferation programs--$10 
billion over the next 10 years. If all pledges are realized, the 
resources available to prevent proliferation from the former Soviet 
Union would effectively double. This would allow for an acceleration of 
the work of the Nunn-Lugar program and related programs at the 
Departments of State and Energy, which have been safeguarding and 
destroying weapons and materials of mass destruction in the former 
Soviet Union for more than a decade.
    To date, the weapons systems deactivated or destroyed by the United 
States under these programs include:

  <bullet> 6,312 nuclear warheads;

  <bullet> 535 ICBMs;

  <bullet> 459 ICBM silos;

  <bullet> 11 ICBM mobile missile launchers;

  <bullet> 128 bombers;

  <bullet> 708 nuclear air-to-surface missiles;

  <bullet> 408 submarine missile launchers;

  <bullet> 496 submarine launched missiles;

  <bullet> 27 nuclear submarines; and

  <bullet> 194 nuclear test tunnels.

In addition:

  <bullet> 260 tons of fissile material have received either 
        comprehensive or rapid security upgrades;

  <bullet> Security upgrades have been made at some 60 nuclear warhead 
        storage sites;

  <bullet> 208 metric tons of Highly Enriched Uranium has been blended 
        down to Low Enriched Uranium;

  <bullet> 35 percent of Russia's chemical weapons have received 
        security upgrades;

  <bullet> Joint U.S.-Russian research is being conducted at 49 former 
        biological weapons production facilities, and security 
        improvements are underway at 4 biological weapons sites;

  <bullet> The International Science and Technology Center operated by 
        the State Department has engaged 58,000 former weapons 
        scientists at 765 institutes in peaceful work; and

  <bullet> The International Proliferation Prevention Program has 
        funded 750 projects involving 14,000 former weapons scientists 
        and created some 580 new peaceful high-tech jobs.

    Despite this impressive record of achievement, there is much work 
left to be done. For example:

  <bullet> Some 340 metric tons of fissile material are still awaiting 
        security upgrades;

  <bullet> Approximately 70 warhead storage facilities are awaiting 
        security upgrades;

  <bullet> Negotiations with Russia have not produced an agreement on 
        the destruction of 68 metric tons of plutonium in the U.S. and 
        Russia;

  <bullet> 5,400 metric tons of nerve agent await destruction;

  <bullet> 62 nuclear-powered submarines await destruction;

  <bullet> Security upgrades are still needed at 20 sites housing 
        dangerous biological pathogens; and

  <bullet> In the future, some 35,000 former nuclear weapons experts 
        will be cut from the Russian nuclear program and will be 
        seeking work.

    We have a window of opportunity to address these threats. We must 
take advantage of this time in history to destroy these weapons that 
threaten not only the American people, but people throughout the world.
    Unfortunately, recent pledges made by our G-8 partners are about $3 
billion below the commitments made at Kananaskis in 2002. Moreover, few 
of the funds pledged by other members of the G-8 have been allocated 
for actual Global Partnership projects. Our allies must turn their 
pledges into projects.
    Funding shortfalls are not the only problem delaying progress by 
the Global Partnership. Russia has refused to provide the necessary 
access to Partnership dismantlement sites. Moscow has not granted 
Partnership participants tax-free status on their assistance. In 
addition, the lack of adequate liability protections plagues the Global 
Partnership, as it has the Plutonium Disposition Program.
    If the Global Partnership is to be successful, Russia must be 
forthcoming with basic programmatic protections. Despite repeated 
requests from Moscow for dismantlement help, Russian leaders continue 
to erect roadblocks that complicate the delivery of assistance.
    In addition, President Putin has not yet submitted the Nunn-Lugar 
Umbrella Agreement to the Duma and Federation Council for approval. 
This agreement, if approved, would codify the tenants under which the 
Nunn-Lugar Program operates in Russia. Senator Biden and I sent a 
letter to the Russian Ministers of Defense and Foreign Affairs urging 
prompt action on the agreement. The Kremlin must understand that 
failure to approve this agreement places U.S.-Russian cooperation at 
risk.
    Despite these trouble spots, President Bush made important progress 
at Sea Island with respect to the Global Partnership:

  <bullet> Australia, Belgium, the Czech Republic, Denmark, Ireland, 
        New Zealand, and South Korea joined as donors; They join 
        Norway, Poland, Switzerland, Finland, and Sweden as non-G-8 
        nations participating in the Global Partnership;

  <bullet> The G-8 agreed to coordinate activities in other states 
        where there have been weapons of mass destruction programs, 
        such as Libya and Iraq; and

  <bullet> G-8 leaders embraced President Bush's proposals on 
        tightening the loopholes that currently exist in non-
        proliferation treaty regimes.

    Specifically, the leaders agreed to ban the transfer of civil 
nuclear technologies to countries that have not concluded an Additional 
Protocol with the IAEA and to create a special committee of the IAEA to 
study how to further tighten verification and safeguards measures. The 
leaders also supported an effort to require countries under 
investigation by the IAEA to recuse themselves from IAEA board 
decisions. In addition, they agreed to a one-year freeze on new 
transfers of enrichment and reprocessing technology to states that do 
not currently possess it.
    Just prior to Sea Island, Secretary of Energy Abraham announced the 
creation of the Global Threat Reduction Initiative in a speech in 
Vienna. It will secure high-risk nuclear materials around the world by 
consolidating and accelerating retrieval efforts and by completing an 
inventory of materials worldwide to rapidly identify any gaps in non-
proliferation efforts. I applaud this initiative and look forward to 
working closely with Secretary Abraham to ensure that it has sufficient 
funding.
    Another important announcement was made in Moscow late last month. 
Russia has agreed to join the Proliferation Security Initiative (PSI). 
Last year, President Bush established the PSI, a multilateral effort 
designed to interdict weapons and materials of mass destruction. Two 
weeks ago, more than sixty nations met to celebrate the first 
anniversary of the PSI and to underscore their commitment to preventing 
rogue states and non-state actors from acquiring weapons of mass 
destruction.
    Today it is my pleasure to welcome two distinguished panels to 
discuss U.S. non-proliferation policy and the events at Sea Island. 
First, we will hear from our good friend and colleague Senator Pete 
Domenici of New Mexico. Senator Domenici has long been a key advocate 
in Congress for strong and innovative non-proliferation policies. I 
have enjoyed working closely with him for more than 10 years on these 
important matters. His leadership was crucial to the establishment of 
the Plutonium Disposition Program and numerous other initiatives. Just 
recently, his amendment lent congressional support to the Global Threat 
Reduction Initiative.
    On our second panel, we will hear from two administration officials 
with oversight of important aspects of our non-proliferation policies. 
We welcome John Bolton, Under Secretary of State for Arms Control and 
International Security and Ambassador Linton Brooks, Administrator of 
the National Nuclear Security Administration. I thank all our witnesses 
for coming today to share their insights on recent non-proliferation 
developments and the events at the G-8 summit.

    The Chairman. I would like to call upon the distinguished 
ranking member, Senator Joseph Biden, for his opening 
statement.

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER

    Senator Biden. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing. With the possible 
exception of the situations in Iraq and Afghanistan, I cannot 
think of anything short-term that is more urgent, and long-term 
I cannot think of, even including Iraq and Afghanistan, 
anything more urgent than this topic. That is, the risk posed 
by the proliferation of weapons of mass destruction.
    To the extent that we have had disagreement or, not 
disagreement, a dissonance with the administration, it has been 
about the degree of urgency and how high on the agenda this 
issue should be. Over 3 years ago we held a hearing when the 
report filed by now-Ambassador Baker, then Howard Baker, the 
former Senator from Tennessee, the majority leader, and Lloyd 
Cutler, and they wrote that ``The most urgent''--and I am 
quoting: ``The most urgent unmet national security threat to 
the United States today is the danger that the weapons of mass 
destruction or weapons-usable material in Russia could be 
stolen and sold to terrorists or hostile nation states and used 
against American troops abroad or citizens at home.''
    At that time, which we all know, they proposed that the 
world devote $3 billion per year to securing former Soviet 
nuclear materials. That is just Soviet nuclear materials, and 
we are not there yet. Given the nonproliferation initiatives at 
last week's G-8 summit, this week's review by the International 
Atomic Energy Agency of Iran's nuclear program,and next week's 
resumption of six-party talks in North Korea, this is a 
particularly appropriate time to review our nonproliferation 
efforts.
    The Senate has added to the Defense bill an amendment that 
was just discussed by Senator Domenici, a significant amendment 
that you and I co-sponsored, called the Global Clean Out of 
Fissile and Radiological Material. I am especially pleased that 
Senator Domenici was our lead witness today and, as you can see 
by his passion, how strongly he feels about this. He has been a 
tower of strength on nonproliferation issues and he has led the 
efforts to accelerate DOE programs.
    The Senator's amendment complements the Global Threat 
Reduction Initiative that Secretary Abraham announced in Vienna 
on May 26 to repatriate Russian and U.S. highly enriched 
uranium, so-called HEU, to convert civilian research reactors 
that use HEU to use low-enriched uranium fuel instead.
    I do not want to appear ungrateful, but I am not convinced 
that even this initiative goes far enough or fast enough. It is 
great that we are accelerating some efforts by as much as 2 
years and others by up to 50 percent. But the real question is 
how long is this going to take to recover and secure all at-
risk fissile material? Will this be done by 2008 or will we be 
still talking about it in 2015?
    I welcome also the initiative that came out of the G-8 
summit, but I would like to hear from Secretary Bolton about 
whether and how these promises are going to achieve tangible 
progress. The action plan on nonproliferation contains some new 
initiatives and reiterates others. It adopts or supports 
several ideas that the President has set forth in his February 
11 speech.
    G-8 members also agreed to expand the Global Partnership 
that works to secure and dismantle Russian WMD materials. All 
these agreements and initiatives sound like progress, but will 
significant new resources be devoted to them by our G-8 
partners, by Global Partnership members, and by our own OMB in 
our own budget, in our process? Too often, bright new 
initiatives turn out to be largely repackaging funds that 
already are in the budget. Too often, bureaucratic disputes 
over issues like access and liability starve programs.
    I wonder whether these disputes can be resolved without 
engaging the President of the United States and President Putin 
to give them the sustained attention that they need. Too often, 
promises are not implemented when tough action, such as export 
control laws, sanctions, and actual enforcement, are called 
for.
    I would like to hear from our witnesses today how these 
fine words will translate into real action and what the 
administration will do at the highest levels to make 
nonproliferation initiatives work.
    As we confront the problems of a nuclear-armed North Korea, 
an increasingly armed North Korea, of a potentially nuclear 
Iran, and terrorists seeking weapons of mass destruction, real 
and effective action could not be more urgent. I literally 
cannot think of a single thing, speaking for myself, that would 
warrant more allocation of American resources at this moment 
than this issue. I cannot fathom anything approaching this.
    I mean, look. We all talk so much about terror, we all talk 
so much about terrorism. I remind you what you all know. I 
remind all of us in the Senate as well. Back over a year and a 
half ago, as the chairman will recall, at the time when before 
the last election and I was sitting in the chairman's seat, 
actually I asked the heads of the national laboratories whether 
they could produce a home-made nuclear weapon off the shelf, 
and they said they would go back and they would think about it. 
They came back with a home-made nuclear weapon.
    They physically--as they say, it was bigger than a breadbox 
and smaller than a dump truck. They physically showed it to us. 
The only thing it lacked was the fissile material needed for it 
to function. The materials were literally purchased and put 
together without violating any law in the United States of 
America. Thank God the fissile material is the hard part to 
get.
    So I cannot think of anything, anything at all, more urgent 
than this. My my primary disagreement with the administration 
is the apparent--speaking only for myself--the apparent lack of 
a sense of urgency. I am anxious to hear from our witnesses 
today, and I thank the chairman again and I thank Senator 
Domenici for his being so fully engaged in this.
    The Chairman. Thank you very much, Senator Biden.
    I will call upon the witnesses in the order that I have 
introduced them. That will be first of all Mr. Bolton, then Mr. 
Brooks. Secretary Bolton, we are pleased to have you. Would you 
please proceed with your testimony.
    Let me make the point at the outset that the statements 
that both of you have prepared have been comprehensive. They 
will be placed in the record in full, so you may proceed in any 
way that you wish.

STATEMENT OF HON. JOHN R. BOLTON, UNDER SECRETARY OF STATE FOR 
  ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                             STATE

    Mr. Bolton. Thank you very much, Mr. Chairman, Senator 
Biden. It is a pleasure to be here today to discuss the 
achievements that President Bush made at the Sea Island summit 
last week and in particular the future of the Global 
Partnership.
    Mr. Chairman, you and this committee of course have been in 
the forefront of international efforts designed to reduce the 
risk that such a horrific event of terrorism use of nuclear 
weapons might ever occur. It is a testimony to the vision of 
this committee's leadership that the Nunn-Lugar cooperative 
threat reduction legislation dates to 1991, when the collapse 
of the Soviet Union left weapons at the mercy of chaotic events 
and vulnerable to loss, theft, or misuse.
    A lot of work has been accomplished under the Nunn-Lugar 
program, but I think it is also a credit to the vision of your 
leadership, Mr. Chairman, that we cannot rest on the 
accomplishments of these programs thus far. Significant though 
they are, there is still a great deal of work to be done to 
move forward on the task that was begun over a decade ago.
    Let me describe what the Sea Island summit committed to 
accomplishing over the next decade. On February 11, the 
President recalled that he had proposed during his address to 
the General Assembly last fall that the Security Council adopt 
a new resolution requiring all states to criminalize 
proliferation, enact strict export controls, and secure all 
sensitive materials within their borders. As you know, the 
Security Council unanimously passed this resolution on April 
28. The G-8 partners commended Resolution 1540 as follows in 
the Sea Island action plan on nonproliferation. Basically, I 
will not read the whole thing, but they strongly supported the 
resolution that President Bush had called for, by calling ``on 
all states to implement this resolution promptly and fully,'' 
and said ``we are prepared to assist them in so doing, thereby 
helping to fight the nexus between terrorism and proliferation, 
and black markets in these weapons and related materials.''
    I might say, Mr. Chairman, I have attached a copy of the G-
8 action plan to my testimony,\1\ which as you noted would be 
included in the record.
---------------------------------------------------------------------------
    \1\ See page 22.
---------------------------------------------------------------------------
    The Proliferation Security Initiative passed its first 
anniversary last month, as you noted, and the Government of 
Poland hosted in Cracow a meeting of 62 countries that 
supported the Proliferation Security Initiative. Others would 
have been there had they been able. So this is a demonstration 
of the global reach of PSI and the global support that it has 
gathered.
    You also noted that Russia joined the core group of PSI. We 
think this is a very substantial decision by the Government of 
Russia. It means that now all G-8 countries are members of the 
PSI core group and it should contribute substantially to the 
operational capabilities that PSI represents.
    We like to say that PSI is an activity, not an 
organization. We believe that spirit and flexibility are among 
the keys to PSI's success. In developing PSI, our main goal has 
been a simple one: to create the basis for practical 
cooperation among states to help navigate the increasingly 
challenged arena of proliferation.
    Our G-8 partners backed us at Sea Island. All eight 
participants reiterated their commitment to PSI and its 
statement of interdiction principles as a global response to a 
global problem. Moreover, the G-8 action plan endorsed the 
President's February proposals to expand PSI from interdiction 
activities in international commerce, to strengthen law 
enforcement efforts, including stopping illicit financial 
flows, and shutting down illicit plants, laboratories, and 
brokers. This is a substantial step forward and we think it 
will strengthen PSI very, very much.
    President Bush also in February made a bold and sweeping 
proposal to address the problem of proliferant states seeking 
nuclear weapons under false pretenses. Several countries have 
pursued programs to produce weapons-grade nuclear material 
under cover of civilian nuclear programs while asserting a 
right under NPT article 4 to pursue sensitive nuclear 
technologies such as enrichment and reprocessing. President 
Bush proposed closing that loophole in a manner that allows for 
the safe development of peaceful nuclear power programs without 
adding to the dangers of weapons proliferation.
    The President called on all members of the nuclear 
suppliers group to refuse to sell enrichment and reprocessing 
technologies to any state that does not already possess full-
scale functioning enrichment and reprocessing plants. At Sea 
Island the G-8 leaders recognized the danger of the spread of 
enrichment and reprocessing technologies and made a commitment 
to put into place by the time of the next G-8 summit next year 
specific measures to close this loophole while allowing the 
world to safely enjoy the benefits of peaceful nuclear energy.
    For the next year, the G-8 leaders agreed to refrain from 
new initiatives involving transferring enrichment and 
reprocessing technologies to additional states and called on 
other states to adopt the same approach. Over the next year we 
will work to achieve the President's objective of stanching the 
indiscriminate spread of these sensitive technologies. I spoke 
to the NSG's annual plenary session in Goteborg, Sweden, last 
month, where I urged the other members to work with us to close 
this loophole in the nuclear nonproliferation regime. The 
endorsement of the G-8 leaders is an important step in this 
effort.
    The Sea Island summit also gave strong support to the 
President's proposals concerning the IAEA additional protocol. 
The President proposed that by next year only states that have 
signed the additional protocol would be allowed to import 
equipment for their civilian nuclear programs. We have 
introduced that proposal into the NSG, urging amendment of the 
nuclear suppliers guidelines to make the additional protocol a 
condition of supply for all trigger list items. In the G-8 
action plan, the leaders urged all states to ratify and 
implement the additional protocol as soon as possible and said 
that the additional protocol, quote, ``must become an essential 
new standard in the field of nuclear supply arrangements. We 
will work to strengthen the NSG guidelines accordingly. We aim 
to achieve this by the end of 2005.'' Implementing this 
agreement we believe will achieve the President's goal.
    The President also affirmed that we must ensure that the 
International Atomic Energy Agency is organized to take action 
when action is required. To this end, he suggested two steps to 
strengthen IAEA governance: creation of a special committee of 
the IAEA Board of Governors to focus intensively on safeguards 
and verification; and second, that countries under 
investigation for violating nuclear nonproliferation 
obligations should be precluded from serving on the IAEA board 
or the new special committee.
    These proposals drew close interest from our G-8 partners. 
We found much agreement with the idea that safeguards and 
verification need more concerted attention. At Sea Island the 
G-8 leaders endorsed this approach, and I quote: ``To enhance 
the IAEA's integrity and effectiveness and strengthen its 
ability to ensure that nations comply with their NPT 
obligations and safeguards agreements, we will work together to 
establish a new special committee of the IAEA Board of 
Governors. This committee would be responsible for preparing a 
comprehensive plan for strengthened safeguards and 
verification. We believe this committee should be made up of 
member states in compliance with their NPT and IAEA 
commitments.''
    The G-8 partners also agreed with the principle, as the 
President expressed it, that those actively breaking the rules 
should not be entrusted with enforcing the rules. To this end, 
we sought to limit the opportunity of IAEA board members who 
are in violation of their nonproliferation obligations to act 
on board business that addresses those violations. At Sea 
Island the G-8 leaders endorsed the recusal of countries under 
investigation from decisions regarding their own cases. This is 
a step forward, although more needs to be done on this point.
    These issues will be addressed at the IAEA Board of 
Governors meeting that began yesterday, June 14. We will be 
raising the question of the special committee and the question 
of denying board and Special Committee memberships to those in 
violation of their nonproliferation obligations. We will 
describe terms of reference for the special committee with 
attention to how we can better understand and respond to trade 
in black market equipment and technology. We will urge the IAEA 
to use the full breadth of its authorities to verify declared 
activities and to ferret out undeclared nuclear activities.
    Each and every one of the foregoing initiatives reinforces 
the Global Partnership, to which I now turn. As you mentioned, 
Mr. Chairman, the G-8 created the Global Partnership in 
Kananaskis 2 years ago, where the leaders pledged up to $20 
billion over a 10-year period on projects in the former Soviet 
Union. The Global Partnership accomplished a great deal in the 
past 2 years, making progress toward its commitment to raise up 
to $20 billion, expanding participation, laying solid 
groundwork for cooperation, advancing current programs, and 
launching new projects. This United States initiative attempts 
to leverage our G-8 partners to match our own billion dollar a 
year program.
    So far, the seven other G-8 states have pledged 
approximately $6.5 billion, Russia will spend $2 billion of its 
own funds, and, as you have mentioned, seven new countries 
joined this year and six joined at the Evian summit last year. 
This is an important political step as well as an important 
economic step we think in strengthening the Global Partnership.
    President Bush also proposed expanding the Global 
Partnership to new recipient countries. We have substantial 
nonproliferation projects under way in several former Soviet 
states, which counts toward our Global Partnership pledge, as 
have some other G-8 countries, and we plan to work for the 
remainder of this year to see about bringing these other former 
Soviet states formally into the Global Partnership.
    You have also noted I think a very significant development 
and that is the commitment of the G-8 to use the Global 
Partnership for programs such as retraining nuclear and other 
WMD scientists and technicians in countries like Libya and 
Iraq.
    Through the launch of the Global Partnership initiative, 
the leading industrialized countries of the G-8 committed to 
greatly expanding nonproliferation cooperation that far exceeds 
their engagement in the preceding 10 years. Some have 
criticized the progress made to date in implementing these 
commitments. However, many donor countries started from scratch 
to negotiate implementing agreements with Russia that include 
essential sound business practices such as tax exemption, 
access to work sites, and transparency in financial 
transactions.
    For example, Canada and Russia signed at Sea Island last 
week a bilateral agreement that will allow Canada's projects in 
Russia to go forward. I might say the Canadian pledge is $750 
million U.S. This welcome step required negotiations that began 
shortly after Kananaskis and took 2 years to complete. 
Unfortunately, the work of putting in place the necessary 
agreements, which requires close coordination and support from 
the recipient countries, has taken longer than we would like, 
as does the development of sound project designs that will 
ensure that the taxpayer money does not go to waste. I can 
assure you that donor countries are readily pressing for timely 
conclusion of these arrangements.
    Since the United States already had implementing frameworks 
in place, we have forged ahead. The United States is on track 
in fulfilling its $10 billion pledge with annual funding 
commitments at about $1 billion. The planned United States 
activities will represent a substantial increase over the 
preceding 10 years effort. The $10 billion pledged from June 
2002 through 2012 will be some $3 billion greater than the 
United States spent on non-proliferation efforts from 1992 to 
2002. Our funding commitments are being translated into 
concrete actions as considerable amounts of funds are flowing 
to Global Partnership projects.
    Global Partnership cooperation spans the full range of non-
proliferation and nuclear safety cooperation. I have attached 
for the record to my testimony the G-8 Global Partnership's 
annual report and its annex, the Consolidated Report of Global 
Partnership Projects, which provides a record of Global 
Partnership activities and project commitments to date. This is 
also posted on the Sea Island Web site.\2\
---------------------------------------------------------------------------
    \2\ www.g8usa.gov/documents.htm
---------------------------------------------------------------------------
    The broad level of support for the Global Partnership goals 
is reflected in the wide degree of participation in the Global 
Partnership projects. My colleagues from the Departments of 
Energy and Defense will elaborate on their agencies' 
significant work and accomplishments, including in the areas of 
nuclear and radioactive materials security, chemical weapons 
destruction, biosecurity, and biosafety, and redirection of 
former weapons scientists. It is worth noting that these 
efforts enjoy a substantial degree of support from other Global 
Partnership participants.
    While a great deal remains to be done, the Global 
Partnership is making good, steady, financially sound progress 
toward the goal of implementing projects that will keep weapons 
and materials of mass destruction out of the hands of those who 
would do us harm.
    Mr. Chairman, we believe that the Sea Island summit and the 
G-8 action plan on non-proliferation will be important 
milestones in the fight against the spread of weapons of mass 
destruction. We look forward to working with you and other 
members of this committee. Thank you again for the opportunity 
to testify here today and I look forward to answering your 
questions.
    [The prepared statement of Mr. Bolton follows:]

               Prepared Statement of Hon. John R. Bolton

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before the committee today to discuss our 
progress on the United States' nonproliferation agenda. I will report 
in some detail on the significant achievements at the G-8 summit at Sea 
Island last week.
    President Bush set out the next steps in the administration's 
nonproliferation agenda in a comprehensive speech on February 11 of 
this year at the National Defense University. He made a number of 
specific proposals that formed the core of the United States approach 
at the Sea Island summit. The President clearly highlighted the 
nightmare scenario presented by the possibility of terrorists or their 
state sponsors acquiring weapons of mass destruction (``WMD''), which 
would have no hesitation in using against civilian targets.
    The danger the President addressed is not new, and this committee 
and its chairman have been in the forefront of international efforts 
designed to reduce the risk that such a horrific event might ever 
occur. It is a testimony to the vision of this committee's leadership 
that the Nunn-Lugar Cooperative Threat Reduction legislation dates to 
1991, when the collapse of the Soviet Union left a legacy of awesome 
weapons at the mercy of chaotic events and vulnerable to loss, theft or 
misuse. The work that has been accomplished under that legislation has 
gone a long way towards preventing hostile states and terrorists from 
acquiring such weapons. It has helped transform a relationship of 
mutual hostility into one of cooperation. Rising to the occasion of an 
emergency response to crisis, our CTR programs have expanded in scope 
and enlisted the cooperation of friends and allies from around the 
world. Indeed, it is impossible to conceive of the Global Partnership 
as it now stands, without a clear line of paternity leading back to 
Nunn-Lugar over a decade ago.
    It is also a credit to the vision of your leadership, Mr. Chairman, 
that we cannot rest on the accomplishments of these programs thus far. 
Significant though they are, there is still a great deal of work to be 
done to move forward on the task that was begun over a decade ago. Let 
me describe what the Sea Island summit committed us to accomplishing 
over the next decade.

            THE PRESIDENT'S SPEECH AND THE SEA ISLAND SUMMIT

    1. On February 11, the President recalled that he had proposed 
during his address to the UN General Assembly that the United Nations 
Security Council adopt a new resolution requiring all states to 
criminalize proliferation, enact strict export controls, and secure all 
sensitive materials within their borders. As you know, the Security 
Council unanimously passed this resolution on April 28. The G-8 
Partners commended Resolution 1540 as follows in the Sea Island Action 
Plan on Nonproliferation:

          We strongly support UN Security Council Resolution 1540, 
        calling on all states to establish effective national export 
        controls, to adopt and enforce effected laws to criminalize 
        proliferation, to take cooperation action to prevent non-state 
        actors from acquiring weapons of mass destruction, and to end 
        illicit trafficking in such weapons, their means of delivery, 
        and related materials. We call on all states to implement this 
        resolution promptly and fully, and we are prepared to assist 
        them in so doing, thereby helping to fight the nexus between 
        terrorism and proliferation, and black markets in these weapons 
        and related materials.

    A copy of the Sea Island G-8 Action Plan on Nonproliferation is 
attached to this testimony.
    2. The Proliferation Security Initiative (``PSI'') passed its first 
anniversary last month. On May 31-June 1, the Government of Poland 
hosted an important conference of nations supporting PSI in Krakow, 
Poland, where the President first announced the initiative to address 
the growing challenge of weapons of mass destruction proliferation. It 
was gratifying to see so many countries--sixty-two in all--represented 
at this anniversary, and we know of other supporters who could not 
attend. We like to say that ``PSI is an activity, not an 
organization,'' and we believe this spirit and flexibility are among 
the keys to PSI's success. In developing PSI, our main goal has been a 
simple one--to create the basis for practical cooperation among states 
to help navigate the increasingly challenging arena of proliferation. 
Our goal is based on an equally simple tenet--that the impact of states 
working together in a deliberately cooperative manner would be greater 
than states acting alone in an ad hoc fashion.
    This past year, we learned just how far proliferation networks had 
advanced. PSI addresses that threat. And President Bush proposed in 
February that the work of PSI be broadened beyond interdicting 
shipments and transfers, to include greater cooperation in law 
enforcement.
    Our G-8 partners backed us at Sea Island. All eight participants 
reiterated their commitment to PSI and its Statement of Interdiction 
Principles as a global response to a global problem. The G-8 
Nonproliferation Action Plan spoke in detail to PSI activities:

          We will further cooperate to defeat proliferation networks 
        and coordinate, where appropriate, enforcement efforts, 
        including by stopping illicit financial flows and shutting down 
        illicit plants, laboratories, and brokers, in accordance with 
        national legal authorities and legislation and consistent with 
        international law. Several of us are already developing 
        mechanisms to deny access to our ports and airports for 
        companies and impose visa bans on individuals involved in 
        illicit trade.

    3. President Bush also made a bold and sweeping proposal to address 
the problem of proliferant states seeking nuclear weapons under false 
pretenses. Several countries have pursued programs to produce weapons-
grade nuclear material under cover of civilian nuclear programs, while 
asserting a right under NPT Article IV to pursue sensitive nuclear 
technologies, such as enrichment and reprocessing. President Bush 
proposed closing that loophole in a manner that allows for the safe 
development of peaceful nuclear power programs without adding to the 
danger of weapons proliferation.
    The President called on all members of the Nuclear Suppliers Group 
(``NSG'') to refuse to sell enrichment and reprocessing technologies to 
any state that does not already possess full-scale, functioning 
enrichment and reprocessing plants. At Sea Island, the G-8 leaders 
recognized the danger of the spread of enrichment and reprocessing 
technologies and made a commitment to put in place by the time of the 
G-8 summit next year specific measures to close this loophole while 
allowing the world to safely enjoy the benefits of peaceful nuclear 
energy. For the next year, the G-8 leaders agreed to refrain from new 
initiatives involving transferring enrichment and reprocessing 
technologies to additional states, and called on other states to adopt 
the same approach. Over the next year we will work to achieve the 
President's objective of staunching the indiscriminate spread of these 
sensitive technologies. I spoke to the NSG's annual plenary session in 
Goteborg, Sweden last month, where I urged the other members to work 
with us to close this loophole in the nuclear nonproliferation regime. 
The endorsement of the G-8 leaders is an important step in this effort.
    4. The Sea Island summit also gave strong support to the 
President's proposals concerning the IAEA Additional Protocol. The 
President proposed that, by next year, only states that have signed the 
IAEA Additional Protocol be allowed to import equipment for their 
civilian nuclear program. We have introduced that proposal into the 
NSG, urging amendment of the Nuclear Suppliers Guidelines to make the 
Additional Protocol a condition of supply for all ``trigger list'' 
items. In the G-8 Action Plan on Nonproliferation, the leaders urged 
all states to ratify and implement the Additional Protocol as soon as 
possible and said that the Additional Protocol ``must become an 
essential new standard in the field of nuclear supply arrangements. We 
will work to strengthen NSG guidelines accordingly. We aim to achieve 
this by the end of 2005.'' Implementing this agreement, we believe, 
would achieve the President's goal.
    5. The President also affirmed that we must ensure that the 
International Atomic Energy Agency (``IAEA'') is organized to take 
action when action is required. To this end, he suggested two steps to 
strengthen IAEA governance: the creation of a Special Committee of the 
IAEA Board of Governors to focus intensively on safeguards and 
verification, and second, that countries under investigation for 
violating nuclear nonproliferation obligations should be precluded from 
serving on the IAEA Board or the new Special Committee.
    These proposals drew close interest from our G-8 partners. We found 
much agreement with the idea that safeguards and verification need more 
concerted attention. At Sea Island, the G-8 leaders endorsed this 
approach:

          To enhance the IAEA's integrity and effectiveness, and 
        strengthen its ability to ensure that nations comply with their 
        NPT obligations and safeguards agreements, we will work 
        together to establish a new Special Committee of the IAEA Board 
        of Governors. This committee would be responsible for preparing 
        a comprehensive plan for strengthened safeguards and 
        verification. We believe this committee should be made up of 
        member states in compliance with their NPT and IAEA 
        commitments.

    G-8 partners also agreed with the principle, as the President 
expressed it, that those actively breaking the rules should not be 
entrusted with enforcing the rules. To this end, we sought to limit the 
opportunity for IAEA Board members, which are in violation of their 
nonproliferation obligations, to act on Board business that addresses 
their own violations. At Sea Island the G-8 leaders endorsed recusal of 
countries under investigation from decisions regarding their own cases. 
This is a step forward, although more needs to be done on this point.
    These issues will be addressed at the IAEA Board of Governors 
meeting that began yesterday, June 14. We will be raising the question 
of the Special Committee, and the question of denying Board and Special 
Committee membership to those in violation of their nonproliferation 
obligations. We will describe terms of reference for the Special 
Committee, with attention to how we can better understand, and respond 
to, trade in black market equipment and technology. We will urge the 
IAEA to use the full breadth of its authorities to verify declared 
activities, and to ferret out undeclared nuclear activities.
    Each and every one of the foregoing initiatives reinforces the 
Global Partnership, to which I now turn.

                           GLOBAL PARTNERSHIP

    At their June, 2002, Summit in Kananaskis, G-8 leaders pledged to 
raise up to $20 billion to be spent over ten years for 
nonproliferation, disarmament, counter-terrorism, and nuclear safety 
projects in the states of the former Soviet Union. This commitment 
attempts to prevent terrorists or states that support them from 
acquiring or developing weapons of mass destruction (``WMD''), 
missiles, and related materials, equipment and technology.
    The Global Partnership accomplished a great deal in the past two 
years, making progress towards its commitment to raise up to $20 
billion, expanding participation, laying solid groundwork for 
cooperation, advancing current programs, and launching new projects. 
This United States initiative attempts to leverage our G-8 partners to 
match our own billion-dollar-per-year programs.
    To date, the seven other G-8 states and the European Union have 
pledged about $6.5 billion. In addition, Russia plans to spend $2 
billion of its own funds. Six new donors that joined in 2003--Finland, 
the Netherlands, Norway, Poland, Switzerland, and Sweden--have 
committed about $210 million. Concrete results are now appearing in 
projects underway or about to begin with funding mobilized from the 
Partnership. The United States considers the $20 billion goal of the 
Global Partnership to be a floor and not a ceiling. We made this 
position quite clear at Kananaskis and subsequently, and more recently 
in the President's February NDU speech. We hope to persuade our G-8 
colleagues to consider it the same.
    Another component of President Bush's initiative was to expand the 
Global Partnership to involve additional donor countries. Last week, at 
the Sea Island summit, G-8 leaders welcomed seven new donor countries: 
Australia, Belgium, the Czech Republic, Denmark, Ireland, the Republic 
of Korea, and New Zealand. While many of these new donors are in the 
early stages of the process of designating funds and considering 
projects, they nonetheless increase the Global Partnership's political 
impact, and broaden its capability, to make it a truly global effort to 
prevent the proliferation of weapons and materials of mass destruction.
    President Bush also proposed expanding the Global Partnership to 
new recipient countries. The United States has substantial 
nonproliferation projects underway in several former Soviet states, 
which count toward our Global Partnership pledge, as have some other G-
8 countries. We are actively encouraging the G-8 to accept new 
recipient countries such as Ukraine, Kazakhstan, Uzbekistan, and 
Georgia, and will continue to do so. We discussed participation with 
Ukraine, and will do so with other former Soviet states.
    At Sea Island, the G-8 took an important step to make the Global 
Partnership truly global, agreeing to use the Global Partnership to 
coordinate efforts to address proliferation challenges worldwide. For 
example, we will pursue the retraining of Iraqi and Libyan scientists 
involved in past WMD programs.
    Through the launch of the Global Partnership initiative the leading 
industrialized countries of the G-8 committed to greatly expanded 
nonproliferation cooperation, that far exceeds their engagement in the 
preceding ten years. Some have criticized the progress made to date in 
implementing these commitments. However, many donor countries started 
from scratch to negotiate implementing agreements with Russia that 
include essential sound business practices such as tax exemption, 
access to work sites, and transparency in financial transactions. For 
example, Canada and Russia signed at Sea Island last week a bilateral 
agreement that will allow Canada's projects in Russia to go forward; 
this welcome step required negotiations that began shortly after 
Kananaskis and took two years to complete. Unfortunately, the work of 
putting in place the necessary agreements, which requires close 
coordination and support from the recipient countries, has taken longer 
than we would like, as does the development of sound project designs 
that will ensure that taxpayer money does not go to waste. I can assure 
you that donor countries are readily pressing for timely conclusions of 
these arrangements.
    Since the U.S. already had implementing frameworks in place, we 
have forged ahead. The United States is on track in fulfilling its $10 
billion pledge, with annual funding commitments at about $1 billion. 
The planned United States activities will represent a substantial 
increase over the preceding 10 years' efforts. The $10 billion pledged 
from June 2002 through 2012 will be some $3 billion greater than the 
United States spent on nonproliferation efforts from 1992 to June 2002. 
Our funding commitments are being translated into concrete actions as 
considerable amounts of funds are flowing to Global Partnership 
projects.
    Global Partnership cooperation spans the full range of 
nonproliferation and nuclear safety cooperation. I am submitting for 
the record the G-8 Global Partnership's Annual Report and annex, the 
Consolidated Report of Global Partnership Projects, which provide a 
record of Global Partnership activities and project commitments to 
date. These reports were released by the G-8 leaders last week at the 
Sea Island summit, and are available on the Sea Island Web site 
www.g8usa.gov/documents.htm. The reports reflect funding since the 
establishment of the Global Partnership in 2002. Thus, U.S. FY 1992-
2002 funding of almost $7.2 billion for nonproliferation and threat 
reduction programs in the former Soviet Union are not included therein.
    The broad level of support for the Global Partnership goals is 
reflected in the wide degree of participation in the Global Partnership 
projects. My colleagues from the Departments of Energy and Defense will 
elaborate on their agencies' significant work and accomplishments, 
including in the areas of nuclear and radioactive materials security, 
chemical weapons destruction, bio-security and bio-safety, and 
redirection of former weapons scientists. It is worth noting that these 
efforts enjoy a substantial degree of support from other Global 
Partnership participants.
    Chemical weapons (CW) destruction. Russia's stockpile of 40,000 
metric tons of chemical weapons--the largest in the world by far--is a 
substantial security concern. We need only think back to the 1995 
attack by the Japanese cult Aum Shinrikyo on the Tokyo subway system to 
recall the consequences of terrorist use of chemical weapons. Canada, 
the European Union, Finland, France, Germany, Italy, the Netherlands, 
Norway, Poland, Russia, Switzerland, and the United Kingdom are 
committed to projects assisting Russia at sites including Gorny, 
Shchuch'ye, Pochep, and Kambarka.
    Russia is responsible for fulfilling its obligations under the 
Chemical Weapons Convention to destroy its CW stockpiles, but 
assistance provided by Global Partnership partners will substantially 
facilitate and accelerate the destruction of CW in Russia. The U.S, is 
by far the largest donor in this project, with funding over $830 
million since 1992, mostly for the nerve agent destruction facility at 
Shchuch'ye.
    Nuclear submarine dismantlement. The United States is completing a 
multiyear effort to dismantle Russian decommissioned strategic nuclear 
submarines, with $372 million funded to date. In addition, to assist 
our Global Partnership colleagues, we have authorized the use of 
equipment belonging to the U.S. program by other countries to dismantle 
Russia's general-purpose nuclear-powered submarines. Under the Global 
Partnership, Canada, the European Union, Finland, France, Germany, 
Italy, Japan, the Netherlands, Norway, Sweden, and the United Kingdom 
are or will soon be providing substantial contributions for nuclear 
submarine dismantlement and related activities for the safe handling 
and storage of their associated nuclear and radioactive waste.
    Securing nuclear materials. Disposing, securing and preventing the 
further production of fissile materials is key to our global efforts to 
keep terrorists or threatening states from acquiring or manufacturing a 
nuclear weapon. This area is a priority for the United States, Canada, 
the European Union, Finland, Germany, Norway, Sweden, and the United 
Kingdom.
    DOE has for some time been engaged in a high-priority effort to 
increase the protection of nuclear material in Russia. To date, with 
U.S. assistance, approximately forty-five percent of fissile material 
in Russian is secure. By 2008, Russia and the U.S. plan to have all 
fissile material facilities secure. Funding for these programs has 
increased 50% over the last four years from $622 million (for FY 96-00) 
to $928 million (for FY 01-04).
    DOD has recently completed the construction and certification of 
the fissile material storage facility at Mayak in Russia. This modern 
and highly secure facility will allow Russia to consolidate and safely 
store more than 25 tons of Russian plutonium from their nuclear weapons 
program.
    In addition, Secretary Abraham announced the Global Threat 
Reduction Initiative (``GTRI'') on May 26. We are committing over $450 
million to GTRI. Its overall objective is to secure, remove or dispose 
of a broad range of nuclear and radiological materials around the world 
that are vulnerable to theft. Important components of the program are 
to repatriate U.S. and Russian-origin research reactor fuel, and to 
convert research reactors from HEU to LEU. In his announcement 
Secretary Abraham committed the United States to return all fresh 
Russian-origin HEU material to Russia by the end of 2005, and to 
complete the repatriation of all Russian-origin spent fuel by 2010. On 
the following day the United States and Russia signed an implementing 
agreement that will permit this program to move forward with 
accelerated fuel shipments from Russian-origin research reactors in at 
least 12 countries.
    Increasing the Security of Russian Nuclear Warheads. There are also 
ongoing efforts by the Departments of Defense and Energy to increase 
the security of Russian nuclear warhead facilities. Considerable effort 
has been devoted to difficult access issues for these sensitive 
facilities and work is now ongoing in order to increase the security of 
warhead storage sites throughout Russia. My DOE colleagues will have 
more to say about these programs.
    Securing Dangerous Pathogens. Cooperative bio-security and bio-
safety projects in the former Soviet Union, including securing 
dangerous pathogens, are being pursued not only by the U.S. but also by 
France and Sweden. The DOD biosecurity programs are aimed at increasing 
the safety and security of dangerous pathogen collections in Russia, 
Kazakhstan, Uzbekistan, and Georgia. Meanwhile, we are working with 
these countries to become partners in global efforts to prevent 
biological terrorism. Funding for this program is $54 million for FY 
2003 and FY 2004.
    Redirection of former weapons scientists. One of the biggest 
proliferation challenges we face today is preventing the spread of the 
knowledge and expertise necessary to make weapons of mass destruction. 
A key priority for the United States is to redirect former weapons 
scientists to productive civilian employment so they do not leave to 
work for terrorist groups or dangerous states. These programs share a 
common strategy: to access high-risk former weapon institutes and to 
help them ``graduate'' into self-supporting, transparent civilian 
endeavors. Besides the United States, the European Union, individual 
European states, the United Kingdom, and Canada are working to 
implement several programs to engage WMD scientists.
    The United States is engaged in the permanent redirection of former 
weapon scientists worldwide through long-standing programs such as the 
Science Centers and Bio-Chem Redirection programs. Newer efforts are 
underway, such as the scientist redirection initiatives in Iraq and 
Libya and the Bio Industry Initiative in Eurasia.
    Improving Export Control. Working with other governments to ensure 
that they have the necessary awareness, authorities, and capabilities 
to prevent transfers of proliferation concern is a critical component 
of nonproliferation objectives. We are continuing to expand our efforts 
to help other countries to bring their export control systems up to 
international standards. These efforts are what the president urged in 
his September 2003 speech to the UN General Assembly, and as now 
embodied in Security Council Resolution 1540, through our Export 
Control and Border Security (``EXBS'') program.
    While the EXBS program initially focused on the former Soviet 
Union, the program has adapted to meet the changing proliferation 
threat. It is now active in over 30 countries, including potential WMD 
``source countries'' in South Asia and in regions that are producers of 
weapons-related items and key transit and transshipment states in 
regions such as Southeast Asia, the Middle East, the Mediterranean and 
Central Europe. The EXBS program draws on expertise from a number of 
U.S. agencies and private contractors to provide training and equipment 
to address all areas of a comprehensive export control system.
    For example, through the EXBS program we have helped other 
countries draft and pass new export control laws, establish special 
customs enforcement teams, improve inspection/detection capabilities 
that have led to seizures of suspect shipments at border crossings, and 
screen license applications and cargo shipments for transfers of 
proliferation concern. We have also placed EXBS program advisors at our 
Embassies in a number of countries to help implement the program and 
coordinate with the efforts of other programs and governments.
    Stopping Nuclear Material Smuggling. We are working closely with 
our allies to detect, track, and prevent nuclear material smuggling. 
Furthermore, we encourage governments to prosecute those involved and 
to take steps to protect WMD material. The IAEA Illicit Trafficking 
Database Program, in which we participate, contributes to our efforts 
to combat smuggling by having governments confirm illicit trafficking. 
This program will help member countries verify sometimes incomplete 
press reporting of illicit trafficking as well as allow better follow 
up on nuclear and radiological material that is not appropriately 
controlled.
    Access. Access to sensitive Russian facilities has been a 
significant issue. Indeed, at the time of the Kananaskis Summit, 
several of our G-8 partners reported that lack of access was a major 
factor preventing the implementation of significant programs in the 
Russian Federation. One of our major objectives in implementing the 
Global Partnership was to break through these barriers. Today, we 
conclude substantial progress has been made toward this major 
objective. For the vast majority of facilities where cooperative work 
is ongoing, we have sufficient access to perform both security upgrades 
and audit such work after completion. There are, however, a few nuclear 
facilities that are so sensitive to the Russians that they have been 
reluctant to provide the access necessary to pursue cooperative 
projects to increase their security.
    NDF. The State Department's Nonproliferation and Disarmament Fund 
(``NDF'') continues to take advantage of unanticipated opportunities to 
tackle unusually difficult and high priority projects. The NDF is 
particularly useful in our efforts in both Libya and Iraq. Most 
recently, NDF assisted State and Energy officers with the packaging and 
shipping of more than 1,500 tons of centrifuge parts, nuclear material 
and related items from Libya, completely removing its uranium 
enrichment program. NDF has also supported the redirection of former 
Iraqi WMD scientists, technicians and engineers to civilian employment. 
This redirection effort is a critical program that prevents the global 
spread of weapons expertise and helps rebuild Iraq. Other less high 
profile, but significant projects, that benefit from NDF funds and 
guidance are the ongoing dismantling of the BN-350 reactor in 
Kazakhstan and security upgrades of sensitive WMD sites in the Balkans. 
Faced with persistent areas of concern, we will continue to deploy NDF 
as a critical tool to halt the proliferation of nuclear, biological, 
chemical and advanced conventional weapons.

                               CONCLUSION

    As you see, the Global Partnership encompasses a wide variety of 
projects. These projects are funded by 21 countries and carried out in 
Russia and a number of other states. The Global Partnership. oversees 
coordination of these projects in order to take advantage of each 
other's experience, avoid duplication and overlap, and steer donor 
countries towards uncovered priority needs. As the pace of project 
activities increases and the number of participating countries grows, 
the importance of this coordinating function will increase.
    While a great deal remains to be done, the Global Partnership is 
making good, steady, financially sound progress toward the goal of 
implementing projects that will keep weapons and materials of mass 
destruction out of the hands of those who would do us harm.
    Mr. Chairman, we believe that the Sea Island summit, and the G-8 
Action Plan on Nonproliferation will be important milestones in the 
fight against the spread of weapons of mass destruction. We look 
forward to working with you and other members of this committee. Thank 
you again for the opportunity to testify here today, and I look forward 
to answering your questions.

    [Attachments]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

G-8 Action Plan on Nonproliferation

    At Evian, we recognized the proliferation of weapons of mass 
destruction and their delivery systems, together with international 
terrorism, as the pre-eminent threat to international peace and 
security. This challenge requires a long-term strategy and multi-
faceted approaches.
    Determined to prevent, contain, and roll back proliferation, today, 
at Sea Island, we announce an action plan to reinforce the global 
nonproliferation regime. We will work together with other concerned 
states to realize this plan.
    All states must fulfill their arms control, disarmament, and 
nonproliferation commitments, which we reaffirm, and we strongly 
support universal adherence to and compliance with these commitments 
under the relevant multilateral treaties. We will help and encourage 
states in effectively implementing their obligations under the 
multilateral treaty regimes, in particular implementing domestically 
their obligations under such treaties, building law enforcement 
capacity, and establishing effective export controls. We call on all 
states that have not already done so to subscribe to the Hague Code of 
Conduct against Ballistic Missile Proliferation.
    We strongly support UN Security Council Resolution 1540, calling on 
all states to establish effective national export controls, to adopt 
and enforce effective laws to criminalize proliferation, to take 
cooperative action to prevent non-state actors from acquiring weapons 
of mass destruction, and to end illicit trafficking in such weapons, 
their means of delivery, and related materials. We call on all states 
to implement this resolution promptly and fully, and we are prepared to 
assist them in so doing, thereby helping to fight the nexus between 
terrorism and proliferation, and black markets in these weapons and 
related materials.

1. Nuclear Nonproliferation

    The trafficking and indiscriminate spread of sensitive nuclear 
materials, equipment, and technology that may be used for weapons 
purposes are a threat to us all. Some states seek uranium enrichment 
and plutonium reprocessing capabilities for weapons programs contrary 
to their commitments under the Treaty on the Non-Proliferation of 
Nuclear Weapons (NPT). We reaffirm our commitment to the NPT and to the 
declarations made at Kananaskis and Evian, and we will work to prevent 
the illicit diversion of nuclear materials and technology. We announce 
the following new actions to reduce the risk of nuclear weapons 
proliferation and the acquisition of nuclear materials and technology 
by terrorists, while allowing the world to enjoy safely the benefits of 
peaceful nuclear technology.

  <bullet> To allow the world to safely enjoy the benefits of peaceful 
        nuclear energy without adding to the danger of weapons 
        proliferation, we have agreed to work to establish new measures 
        so that sensitive nuclear items with proliferation potential 
        will not be exported to states that may seek to use them for 
        weapons purposes, or allow them to fall into terrorist hands. 
        The export of such items should only occur pursuant to criteria 
        consistent with global nonproliferation norms and to states 
        rigorously committed to those norms. We shall work to amend 
        appropriately the Nuclear Suppliers Group (NSG) guidelines, and 
        to gain the widest possible support for such measures in the 
        future. We aim to have appropriate measures in place by the 
        next G-8 Summit. In aid of this process, for the intervening 
        year, we agree that it would be prudent not to inaugurate new 
        initiatives involving transfer of enrichment and reprocessing 
        equipment and technologies to additional states. We call on all 
        states to adopt this strategy of prudence. We will also develop 
        new measures to ensure reliable access to nuclear materials, 
        equipment, and technology, including nuclear fuel and related 
        services, at market conditions, for all states, consistent with 
        maintaining nonproliferation commitments and standards.

  <bullet> We seek universal adherence to IAEA comprehensive safeguards 
        and the Additional Protocol and urge all states to ratify and 
        implement these agreements promptly. We are actively engaged in 
        outreach efforts toward this goal, and ready to offer necessary 
        support.

  <bullet> The Additional Protocol must become an essential new 
        standard in the field of nuclear supply arrangements. We will 
        work to strengthen NSG guidelines accordingly. We aim to 
        achieve this by the end of 2005.

  <bullet> We support the suspension of nuclear fuel cycle cooperation 
        with states that violate their nuclear nonproliferation and 
        safeguards obligations, recognizing that the responsibility and 
        authority for such decisions rests with national governments or 
        the Security Council.

  <bullet> To enhance the IAEA's integrity and effectiveness, and 
        strengthen its ability to ensure that nations comply with their 
        NPT obligations and safeguards agreements, we will work 
        together to establish a new Special Committee of the IAEA Board 
        of Governors. This committee would be responsible for preparing 
        a comprehensive plan for strengthened safeguards and 
        verification. We believe this committee should be made up of 
        member states in compliance with their NPT and IAEA 
        commitments.

  <bullet> Likewise, we believe that countries under investigation for 
        non-technical violations of their nuclear nonproliferation and 
        safeguards obligations should elect not to participate in 
        decisions by the IAEA Board of Governors or the Special 
        Committee regarding their own cases.

2. Proliferation Security Initiative

    We reiterate our strong commitment to and support for the 
Proliferation Security Initiative (PSI) and the Statement of 
Interdiction Principles, which is a global response to a global 
problem. We will continue our efforts to build effective PSI 
partnerships to interdict trafficking in weapons of mass destruction, 
their delivery systems, and related materials. We also will prevent 
those that facilitate proliferation from engaging in such trafficking 
and work to broaden and strengthen domestic and international laws 
supporting PSI. We welcome the increasing level of support worldwide 
for PSI, which now includes all G-8 members. The Krakow meeting 
commemorating PSI's first anniversary, attended by 62 countries, 
evidences growing global support.
    We will further cooperate to defeat proliferation networks and 
coordinate, where appropriate, enforcement efforts, including by 
stopping illicit financial flows and shutting down illicit plants, 
laboratories, and brokers, in accordance with national legal 
authorities and legislation and consistent with international law. 
Several of us are already developing mechanisms to deny access to our 
ports and airports for companies and impose visa bans on individuals 
involved in illicit trade.
    We encourage all states to strengthen and expand national and 
international measures to respond to clandestine procurement 
activities. Directly, and through the relevant international 
mechanisms, we will work actively with states requiring assistance in 
improving their national capabilities to meet international norms.

3. The Global Partnership Against Weapons and Materials of Mass 
        Destruction

    Since its launch by G-8 Leaders two years ago at Kananaskis, the 
Global Partnership has become a significant force worldwide to enhance 
international safety and security. Global Partnership member states, 
including the six new donors that joined at Evian, have in the past 
year launched new cooperative projects in Russia and accelerated 
progress on those already underway. While much has been accomplished, 
significant challenges remain. We recommit ourselves to our Kananaskis 
Statement, Principles, and Guidelines as the basis for Global 
Partnership cooperation.

  <bullet> We recommit ourselves to raising up to $20 billion for the 
        Global Partnership through 2012.

  <bullet> Expanding the Partnership to include additional donor 
        countries is essential to raise the necessary resources and to 
        ensure the effort is truly global. Today we welcome the 
        decisions of Australia, Belgium, the Czech Republic, Denmark, 
        Ireland, the Republic of Korea, and New Zealand to join.

  <bullet> We will continue to work with other former Soviet states to 
        discuss their participation in the Partnership. We reaffirm 
        that Partnership states will participate in projects according 
        to their national interests and resources.

  <bullet> We reaffirm that we will address proliferation challenges 
        worldwide. We will, for example, pursue the retraining of Iraqi 
        and Libyan scientists involved in past WMD programs. We also 
        support projects to eliminate over time the use of highly-
        enriched uranium fuel in research reactors worldwide, secure 
        and remove fresh and spent HEU fuel, control and secure 
        radiation sources, strengthen export control and border 
        security, and reinforce biosecurity. We will use the Global 
        Partnership to coordinate our efforts in these areas.

4. Nonproliferation Challenges

  <bullet> The DPRK's announced withdrawal from the NPT, which is 
        unprecedented; its continued pursuit of nuclear weapons, 
        including through both its plutonium reprocessing and its 
        uranium enrichment programs, in violation of its international 
        obligations; and its established history of missile 
        proliferation are serious concerns to us all. We strongly 
        support the Six-Party Process, and strongly urge the DPRK to 
        dismantle all of its nuclear weapons-related programs in a 
        complete, verifiable, and irreversible manner, a fundamental 
        step to facilitate a comprehensive and peaceful solution.

  <bullet> We remain united in our determination to see the 
        proliferation implications of Iran's advanced nuclear program 
        resolved. Iran must be in full compliance with its NPT 
        obligations and safeguards agreement. To this end, we reaffirm 
        our support for the IAEA Board of Governors' three Iran 
        resolutions. We note that since Evian, Iran has signed the 
        Additional Protocol and has committed itself to cooperate with 
        the Agency, and to suspend its enrichment and reprocessing 
        related activities. While we acknowledge the areas of progress 
        reported by the Director General, we are, however, deeply 
        concerned that Iran's suspension of enrichment-related activity 
        is not yet comprehensive. We deplore Iran's delays, 
        deficiencies in cooperation, and inadequate disclosures, as 
        detailed in IAEA Director General reports. We therefore urge 
        Iran promptly and fully to comply with its commitments and all 
        IAEA Board requirements, including ratification and full 
        implementation of the Additional Protocol, leading to 
        resolution of all outstanding issues related to its nuclear 
        program.

  <bullet> We welcome Libya's strategic decision to rid itself of its 
        weapons of mass destruction and longer-range missiles, to fully 
        comply with the NPT, the Additional Protocol, the Biological 
        and Toxin Weapons Convention (BWC), and the Chemical Weapons 
        Convention (CWC), and to commit not to possess missiles subject 
        to the Missile Technology Control Regime. We note Libya has 
        cooperated in the removal of nuclear equipment and materials 
        and taken steps to eliminate chemical weapons. We call on Libya 
        to continue to cooperate fully with the IAEA and the 
        Organization for the Prohibition of Chemical Weapons.

5. Defending Against Bioterrorism

    Bioterrorism poses unique, grave threats to the security of all 
nations, and could endanger public health and disrupt economies. We 
commit to concrete national and international steps to: expand or, 
where necessary, initiate new biosurveillance capabilities to detect 
bioterror attacks against humans, animals, and crops; improve our 
prevention and response capabilities; increase protection of the global 
food supply; and respond to, investigate, and mitigate the effects of 
alleged uses of biological weapons or suspicious outbreaks of disease. 
In this context, we seek concrete realization of our commitments at the 
fifth Review Conference of the BWC. The BWC is a critical foundation 
against biological weapons' proliferation, including to terrorists. Its 
prohibitions should be fully implemented, including enactment of penal 
legislation. We strongly urge all non-parties to join the BWC promptly.

6. Chemical Weapons Proliferation

    We support full implementation of the CWC, including its 
nonproliferation aspects. We strongly urge all non-parties to join the 
CWC promptly, and will work with them to this end. We also urge CWC 
States Parties to undertake national legislative and administrative 
measures for its full implementation. We support the use of all fact-
finding, verification, and compliance measures, including, if 
necessary, challenge inspections, as provided in the CWC.

7. Implementation of the Evian Initiative on Radioactive Source 
Security

    At Evian we agreed to improve controls on radioactive sources to 
prevent their use by terrorists, and we have made substantial progress 
toward that goal. We are pleased that the IAEA approved a revised Code 
of Conduct on the Safety and Security of Radioactive Sources in 
September 2003. We urge all states to implement the Code and recognize 
it as a global standard.
    We have agreed to export and import control guidance for high-risk 
radioactive sources, which should only be supplied to authorized end-
users in states that can control them. States should ensure that no 
sources are diverted for illicit use. We seek prompt IAEA approval of 
this guidance to ensure that effective controls are operational by the 
end of 2005 and applied in a harmonized and consistent manner. We 
support the IAEA's program for assistance to ensure that all countries 
can meet the new standards.

8. Nuclear Safety and Security

    Since the horrific 1986 accident at Chernobyl, we have worked with 
Ukraine to improve the safety and security of the site. We have already 
made a large financial contribution to build a safe confinement over 
the remnants of the Chernobyl reactor. We are grateful for the 
participation and contributions made by 21 other states in this effort. 
Today, we endorse international efforts to raise the remaining funds 
necessary to complete the project. We urge Ukraine to support and work 
closely with us to complete the confinement's construction by 2008 in a 
way that contributes to radiological safety, in particular in Ukraine 
and neighboring regions.
    An effective, efficient nuclear regulatory system is essential for 
our safety and security. We affirm the importance for national 
regulators to have sufficient authority, independence, and competence.

                                 ______
                                 

                  G8 Global Partnership Annual Report

                       g8 senior group, june 2004
1. Introduction
    At the Kananaskis Summit in June 2002, G8 Leaders launched the 
Global Partnership Against the Spread of Weapons and Materials of Mass 
Destruction, committing to support projects to address 
nonproliferation, disarmament, counter-terrorism and nuclear safety 
issues. Building on the efforts of the first year of the Partnership, 
G8 members have taken important steps forward in the past twelve 
months, guided by the Global Partnership Action goals approved by 
Leaders at the Evian Summit in June 2003, and can report that progress 
has been made in implementing projects in Russia. This report evaluates 
progress on those goals and other Global Partnership activities.
    The French Presidency led work on this initiative in the Global 
Partnership Senior Officials Group (GPSOG). The new Senior Group 
undertook responsibilities for the Global Partnership among other 
nonproliferation issues at the beginning of the U.S. Presidency in 
January 2004. The new Global Partnership Working Group (GPWG) is 
responsible for expert-level implementation of the initiative, under 
the guidance of the Senior Group, which has taken an active interest in 
the Global Partnership.

2. Progress on Global Partnership Action Plan Goals

<bullet> Reaching the Kananaskis funding target

        Evian Action Plan Goal:

        To reach our Kananaskis commitment of raising up to $20 billion 
        over ten years through contributions from new donors or 
        additional pledges from partners.

    The national pledges of G8 members include commitments of up to: 
Canada--Can$1 billion; France--euro 750 million; Germany--$1.5 billion; 
Japan--$200 million; Italy--euro 1 billion; United Kingdom--$750 
million; United States--$10 billion. The European Union has pledged 
euro 1 billion and Russia $2 billion. Members to date have concentrated 
on establishing program frameworks, implementing programs, and ensuring 
budgetary allocations to realize their pledges. A number of members 
have emphasized that additional progress on implementation of current 
projects in Russia, with corresponding expenditure of funds, is 
necessary before parliaments will approve increased pledges. Some 
countries have also emphasized the importance of increased Russian 
funding.
    Six new countries that joined the Global Partnership last year--
Finland, the Netherlands, Norway, Poland, Sweden and Switzerland--have 
committed about $200 million to specific projects. Recently, Finland 
announced an increase in its commitment to euro 15 million.
    The G8 members have reaffirmed their commitment to raise up to $20 
billion over ten years. Under its Strategy Against the Proliferation of 
Weapons of Mass Destruction, the European Union intends to reinforce 
its cooperative threat reduction programs by increasing funding after 
2006, for which the creation of a new European Community budget line is 
being considered.

<bullet> Expand project activities

        Evian Action Plan goal:

        To significantly expand project activities, building upon 
        preparatory work to establish implementing frameworks and to 
        develop plans for project activities, as well as to sustain 
        steady progress in projects already under way. We will continue 
        to review progress in initiation and implementation of projects 
        over the coming year, as well as oversee coordination of 
        projects, in order to review priorities, avoid gaps and 
        overlaps, and assess consistency of projects with international 
        security objectives, in accordance with our priorities.

    The GPSOG and the GPWG regularly reviewed project implementation 
over the past year. Such cooperation has resulted in strong progress.
    Implementing frameworks. Some G8 members have in place long-
standing implementation frameworks for Global Partnership projects. 
Others, building upon the work of the previous year, have now 
successfully established the legal basis for specific Global 
Partnership cooperation with Russia. For example, both Germany and 
Italy signed agreements with the Russian Federation for cooperation in 
the areas of nuclear submarine dismantlement and chemical weapons 
destruction. The United Kingdom and the Russia Federation signed an 
agreement for cooperation in the nuclear area. Germany concluded an 
agreement with the Russian Federation on cooperation in the area of 
physical protection of nuclear materials. New EU Joint Action projects 
are implemented under the umbrella of bilateral agreements between 
European Union member states and the Russian Federation. Japan and 
Russia concluded an implementing agreement for a pilot project to 
dismantle a Victor III class nuclear submarine. Canadian and Russian 
officials have completed the text of a framework agreement for Global 
Partnership cooperation.
    The United Kingdom and Canada signed a memorandum of understanding 
allowing the construction of a railway line at the chemical weapon 
destruction facility at Shchuch'ye, to be funded by Canada and 
implemented with the United Kingdom's assistance. This partnership in 
action may serve as the model for future cooperation for countries that 
lack a bilateral agreement with the Russian Federation.
    A number of members have used the Multilateral Nuclear 
Environmental Program in the Russian Federation (MNEPR) framework 
agreement as a model for new bilateral agreements, or have referred to 
the MNEPR framework in their agreements. On the other hand, some 
implementing frameworks have expired and negotiations for others have 
not been concluded because of differences among the parties.
    Initiation and implementation of projects. With implementing 
agreements in place and other groundwork prepared in the first year of 
the Partnership, momentum on project implementation increased 
significantly in the Global Partnership's second year. Highlights of 
major areas are summarized below. In Northwest Russia, the United 
Kingdom has funded the dismantlement of two Oscar class submarines and 
projects to ensure safe and secure spent nuclear fuel management at 
Andreeva Bay. In November 2003, Germany initiated a project to support 
the dismantlement of submarines, including the refurbishment of the 
Nerpa shipyard for that purpose and construction of a long-term 
intermediate storage facility for 120 reactor compartments at Saida 
Bay. France is considering the support of nuclear general-purpose 
submarine dismantlement and remediation in Gremikha. Canada is poised 
to sponsor dismantlement projects. Italy plans to assist with 
dismantlement following ratification of the negotiated agreement by the 
parliaments of Italy and the Russian Federation. Norway is funding the 
dismantlement of two Victor I class nuclear submarines. A number of 
members, including Canada, the European Union, Finland, France, 
Germany, the Netherlands, Norway, Russia, Sweden, and the United 
Kingdom are providing substantial contributions for work to be 
initiated through the Northern Dimension Environmental Partnership 
(NDEP). In the Pacific Far East, Japan's pilot project, dismantlement 
of one Victor III class nuclear submarine, will be completed by autumn 
2004, with further work to dismantle other submarines to follow. In the 
past year, the United States has funded the dismantlement of one 
strategic nuclear submarine and 109 strategic sea-launched ballistic 
missiles. Russia has committed to provide about US $65 million annually 
for submarine dismantlement, rehabilitation of shore-bases and 
decommissioning of nuclear-powered service vessels.
    The European Union, Finland, Germany, Norway, Russia, Sweden, the 
United Kingdom, and the United States are engaged in cooperation to 
increase the security of fissile and/or radioactive materials in 
Russia. Canada is poised to do so following completion of the Canadian-
Russian bilateral framework agreement.
    Canada, France, Japan, Italy, the United Kingdom, and the United 
States have made substantial commitments, totaling $800 million, to the 
plutonium disposition program in the Russian Federation. Initiation of 
this project awaits completion of the multilateral agreement for 
support for this program. In the meanwhile, the United States, France, 
the European Union and Japan are financing initial steps supporting the 
design, costing, and licensing of plutonium disposition facilities. The 
United States has begun implementation of its cooperation with the 
Russian Federation to replace plutonium production reactors by 
alternative energy sources.
    Many Global Partnership countries are supporting projects related 
to chemical weapons destruction. Cooperation projects begun in previous 
years have led to the destruction of over 640 tons of chemical weapons. 
Canada, the European Union, Finland, Germany, Italy, the Netherlands, 
Norway, Poland, Russia, Switzerland, the United Kingdom, and the United 
States are making contributions to chemical weapons destruction at 
sites including Gorny, Shchuch'ye, and Kambarka. France has made 
commitments in this area. Norway, the EU, Czech Republic and Canada are 
channeling funding through the UK programme for projects at Shchuch'ye. 
Italy has further committed to contributions for work at Pochep. The 
Russian Federation has strongly requested that the Global Partnership 
members, including new donor countries, allocate more resources to the 
field of chemical weapons destruction.
    Cooperative bio-safety and bio-security projects are being 
undertaken, including engagements by France, Sweden, and the United 
States.
    A number of Global Partnership members are actively engaged in 
support of employment and redirection of former weapons scientists for 
work in peaceful civilian projects. Focus of these efforts is 
increasingly turning toward facilitating the transition of institutes 
and scientists to sustainable income-producing activities. The 
International Science and Technology Center (ISTC) is a primary channel 
for these programs. In addition, some countries, including the United 
Kingdom and the United States, are working bilaterally in closed 
nuclear cities and in other engagement programs. Canada joined the ISTC 
this year and is already contributing substantially to ISTC activities.
    G8 members have noted that much work remains to be done, and that 
sustained and broadened efforts are needed to achieve timely and 
effective project implementation. Some Global Partnership participants 
have expressed the view that a wider range of projects should be 
pursued, consistent with the areas identified by Leaders at Kananaskis.
    Project coordination. The GPSOG and the GPWG have actively 
considered coordination of projects under the Global Partnership to 
ensure exchange of information among interested countries for the 
purposes described in the action plan goal. The guiding principle has 
been to rely on existing coordination mechanisms, wherever available, 
rather than create additional expert consultative groups within the G8. 
In the chemical area, interested experts have been meeting on the 
margins of the Executive Council of the Organization for the 
Prohibition of Chemical Weapons (OPCW). Where there are no existing 
bodies for a program area, an effort has been made to identify an 
effective arrangement. The GPSOG and subsequently the GPWG considered 
coordination needs with respect to nuclear submarine dismantlement and 
physical protection of nuclear materials.
    With respect to nuclear submarine dismantlement, some members 
identified a need for more effective coordination of activities and 
made proposals in this regard. Members have discussed the roles of 
several organizations where such information can be exchanged, 
including the Northern Dimension Environmental Partnership (NDEP) under 
the European Bank for Reconstruction and Development (EBRD), the IAEA 
Contact Experts Group, and the Council of the Multilateral 
Environmental Nuclear Program in the Russian Federation (MNEPR). The 
GPWG will continue to review this matter and ensure effective 
coordination is undertaken.
    With increased Global Partnership activities in the area of nuclear 
physical protection, consideration is being given to how to facilitate 
coordination and exchange of information, taking into account the 
sensitive nature of the sites where projects are undertaken.
    Some G8 members have stated that master plans developed for 
specific areas of cooperation would provide a sound basis for 
coordination of project activities, as well as for subsequent 
reporting. These members noted that some plans currently exist, but 
that others could be developed. It was also noted that the Russian 
Federation has a major role to play in developing and maintaining these 
master plans.
    Information-sharing on projects. The French Presidency initiated 
and developed a Consolidated Report of Global Partnership Projects, a 
comprehensive listing of Global Partnership commitments. The U.S. 
Presidency has maintained and updated this document, including adding 
project information from the six new Global Partnership donors. (See 
Annex.) Members have agreed this report should be made available to the 
general public and to other interested governments. The GPWG is 
currently addressing how the Consolidated Report might be improved by 
providing additional data and considering proposals for more detailed 
data-sharing among participating governments. G8 members agree that it 
is important to explain to the general public and parliaments concrete 
results achieved with Global Partnership funding and highlight the 
benefits in terms of enhanced security.

<bullet> Resolve outstanding implementation challenges

        Evian Action Plan goal:

        To resolve all outstanding implementation challenges and to 
        review the implementation of all guidelines in practice, 
        keeping in mind the need for uniform treatment of Partners, 
        reflecting our cooperative approach.

    The Kananaskis statement defined a set of guidelines that would 
form the basis for negotiation of specific agreements. The GPSOG and 
the GPWG have given careful attention to review of guideline 
implementation in practice. A number of members have expressed a 
positive assessment of Russia's efforts to implement the Kananaskis 
guidelines and welcomed progress in that area. Members have also 
affirmed the importance of continued review by the GPWG of guideline 
implementation and facilitation of resolution of any problems that 
might arise.
    Since the Evian Summit, GP participants have concluded negotiation 
of additional bilateral implementing agreements for cooperation, as 
noted above. Some agreements remain under negotiation, pending 
resolution of outstanding issues with respect to guidelines, such as 
adequate liability protections. There is a difference of views on 
liability protections, related to respective national requirements. 
Some G8 members believe that the issue could be resolved on the basis 
of the terms of the liability protocol to the MNEPR framework agreement 
that has been signed by some MNEPR members, while others do not agree. 
Negotiations continue in order to reach a satisfactory resolution.
    Most G8 members have reported good progress on implementation of 
guidelines as projects moved into the concrete phase, noting that in 
practice many detailed matters arise which are worked out among the 
implementing entities. A number of countries noted that transparency in 
implementation and well-organized cooperation among the Russian 
authorities is a key concern and important to effective program 
implementation. Countries supporting cooperation projects in Russia 
continue to emphasize the importance of monitoring, especially access 
to work sites, while recognizing that appropriate procedures are 
required regarding access to sensitive sites. Transparent contractor 
selection processes, financial accounting and auditing are also 
important to assure taxpayers that funds are spent for the intended 
purposes. Following the recent reorganization of Russian Federation 
ministries responsible for implementation of nuclear and chemical 
weapons destruction projects, the Russian Federation has worked with G8 
countries in the GPWG to review effects of the reorganization on 
implementation progress, and to address their questions regarding 
ensuring effective implementation of projects during the transition 
period.

<bullet> Expand participation to other countries

        Evian Action Plan goal:

        To expand participation in the Global partnership to interested 
        non-G8 donor countries that are willing to adopt the Kananaskis 
        documents. While still focusing on projects in Russia, we 
        mandate the Chair to enter into preliminary discussions with 
        new or current recipient countries including those of the 
        former Soviet Union that are prepared to adopt the Kananaskis 
        documents, as the Ukraine has already done.

    In the Kananaskis statement, Leaders invited other countries 
prepared to adopt the Kananaskis documents (statement, principles, and 
guidelines) to enter into discussions with Partners on participating in 
and contributing to this initiative. The Senior Group and the Global 
Partnership Working Group have focused on this goal.
    Additional donors. As a result of outreach efforts under the 
Canadian and French Presidencies, last June the G8 welcomed the 
participation of Finland, the Netherlands, Norway, Poland, Sweden, and 
Switzerland to the Global Partnership as donors. The new donors 
participated in meetings of the Global Partnership Senior Officials 
Group in 2003 and of the Global Partnership Working Group in 2004. With 
initial commitments totaling about $200 million, these donors are 
cooperating with Russia to implement a number of projects, including 
some already under way.
    In 2004, the U.S. Presidency, with the support of other G8 and the 
non-G8 donors, has led outreach efforts to invite additional countries 
to participate in and contribute to the Global Partnership, with the 
objective of widening both political and financial support. The 
outreach efforts began with extending an invitation to eight potential 
new donor participants to attend the Global Partnership Working Group 
meeting held in London in March 2004, where information was provided on 
the content, aims, and work of the Global Partnership. As a result of 
this meeting, the Chair engaged in further informal discussions with 
some of these countries. Subsequently, at the end of March, the Chair 
of the Senior Group sent a formal letter of invitation to those 
countries. The letter conveyed that a formal announcement of their 
interest and intention to pledge, accompanied by endorsement of the 
Kananaskis documents, would be welcomed, and encouraged a response in 
time for recognition by Leaders at the June Sea Island Summit. Other G8 
countries have reinforced the Chair's invitation through various 
contacts. A number of invitee countries have been giving serious 
consideration to participation in the Global Partnership. Australia, 
Belgium, the Czech Republic, Denmark, Ireland, the Republic of Korea, 
and New Zealand have communicated that they would like to participate 
as Global Partnership donors and that they are committed to the 
Kananaskis principles and guidelines. After being welcomed by Leaders, 
the Chair of the Global Partnership Working Group will invite their 
participation at future GPWG meetings.
    Recognition of recipients. Recognizing that the spread of weapons 
and materials of mass destruction is a global threat, the Kananaskis 
statement expressed the Leaders' intent that the Partnership extend to 
other recipient countries prepared to adopt the Kananaskis documents, 
including in particular those of the former Soviet Union. Although the 
Leaders agreed to an initial focus on projects in Russia, they also 
announced G8 willingness to enter into negotiations with other 
countries. At Evian, Leaders made a positive response in principle to 
the January 2003 official application presented by Ukraine, while 
recalling that the Partnership was still in its initial phase. 
Following the Evian Summit, the Chair of the GPSOG engaged in further 
discussions with the Government of Ukraine, and a further assurance of 
Ukraine's commitment to the Kananaskis principles and guidelines was 
received in December 2003. The U.S. Presidency has held further 
consultations with Ukraine and other countries of the former Soviet 
Union that have expressed interest in participation in the Partnership.
    In their 2004 meetings, the Senior Group and Global Partnership 
Working Group have given careful consideration to expansion of 
participation to other recipient countries, including to a proposal to 
recognize Ukraine formally and a proposal that certain other former 
Soviet states be invited to seek participation as recipients. All 
members have stated their support in principle for such expansion and 
have noted that, regardless of expansion, projects in the Russian 
Federation will remain the principal focus. It was recognized that 
Partnership states will participate in projects according to their 
national interests and resources. The Senior Group and the GPWG will 
continue to work with other former Soviet states to discuss their 
participation in the Partnership.
    A further proposal has been made that the Global Partnership 
include cooperation projects with countries in other regions. A number 
of members expressed positive views toward inclusion of countries where 
recent developments have led to new opportunities for disarmament and 
nonproliferation cooperative activities, with Iraq, Libya, Albania and 
others mentioned as examples. Some members expressed the view that 
cooperation with these countries should be funded over and above the 
$20 billion Global Partnership target. Others have suggested that these 
programs should be funded outside the Global Partnership. It was agreed 
that the GPWG and the Senior Group will discuss this matter further, 
while providing a forum for interested Global Partnership members to 
review and coordinate activities to be implemented in such countries.

<bullet> Informing others about the Global Partnership

        Evian Action Goal:

        To inform other organizations, parliamentary representatives 
        and publics of the importance of the Global Partnership.

    G8 members sponsor and participate in ongoing outreach efforts to 
ensure that other organizations, parliamentary representatives, and 
publics are informed about the importance and progress of the Global 
Partnership. The European Commission organized an Inter-Parliamentary 
Conference on the Global Partnership at the European Parliament in 
Strasbourg in November 2003, with attendance by members of parliaments, 
governmental representatives, international organizations and non-
governmental organizations. Under the umbrella of the EU's 
Nonproliferation and Disarmament Cooperation Initiative, the United 
Kingdom hosted an expert-level conference in London in March 2004. 
Senior and expert level officials have addressed the Global Partnership 
in a number of forums sponsored by nongovernmental organizations. In 
addition, the GPWG Consolidated Report of Global Partnership Projects 
is to be posted on the Internet for the information of interested 
organizations and publics. Some members have published specific reports 
of their national efforts under the Global Partnership; others include 
information on Global Partnership activities in published reports with 
a larger scope. Such reports can be an important element in providing 
greater public visibility of the Global Partnership.

3. The Way Forward

<bullet> Action goals for the coming year

    The Global Partnership Working Group, under the guidance of the 
Senior Group, will take as its agenda the Global Partnership elements 
of the Leaders Action Plan on Nonproliferation. The GPWG carry forward 
the work of the past two years, including encouraging initiation and 
implementation of cooperation projects; review of implementation 
guidelines, including facilitating resolution of problems; ensuring 
necessary project coordination; and expanding participation to other 
donor and recipient countries.

<bullet> Organizational arrangements

    The Senior Group and the Global Partnership Working Group have 
reviewed the current structures for supporting implementation of the 
Global Partnership. As part of this review, G8 and non-G8 Global 
Partnership participating members discussed whether the GPWG should be 
spun-off from the G8 framework, considering that its expanded 
membership includes a number of non-G8 countries. Global Partnership 
members reached consensus that the current affiliation with the G8 
framework is important to continue. Benefits include the political 
support of the G8 countries, including their support for translating 
financial commitments into budgetary allocations, as well as the 
advantages of secretariat functions for the G8 Presidency. 
Participating countries that are not G8 members will continue to attend 
meetings of the GPWG. Meetings in the G8 format will also continue, 
including for consideration of G8 decisions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you very much, Secretary Bolton, for 
your testimony and for the additional material that you have 
inserted in the record. That will help complete our record at 
this juncture.
    Under Secretary Brooks.

  STATEMENT OF HON. LINTON F. BROOKS, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. Brooks. Thank you, Mr. Chairman, Senator Biden. Like 
Secretary Bolton, I am pleased to be here to discuss a subject 
on which this committee has consistently provided leadership 
over the past decade. Your commitment to stopping the 
proliferation of weapons of mass destruction and your 
leadership in that area is well known. The administration of 
course shares that commitment.
    The Department of Energy portion focuses almost exclusively 
on the proliferation of nuclear weapons and I would like to 
discuss some progress we have made in implementing the Global 
Partnership. Our progress has been considerable. We have 
expanded security upgrades of Russian navy sites and by the end 
of this fiscal year we will have 90 percent of the 39 sites 
fully secured. We will have upgraded the security of almost 
half of the materials in the custody of the Russian Atomic 
Energy Agency.
    I share Senator Biden's view that the knowledge of how to 
construct crude nuclear weapons is frighteningly easy and 
therefore the only sure guarantee is to prevent fissionable 
material from falling in the wrong hands.
    We have built on the work, previous work by the Department 
of Defense, and we are working to upgrade security at 28 sites 
of the Russian Strategic Rocket Forces. We plan to complete all 
of these by 2008. We are also working to consolidate and secure 
fissionable materials internationally. We have upgraded 
security at 13 nuclear facilities in Eurasia, primarily in the 
former Soviet Union. These hold 3.5 metric tons of weapons-
grade nuclear materials.
    We are working to redirect WMD scientists, engineers, and 
technicians through the Russian transition initiative [RTI]. We 
have engaged over 14,000 weapons scientists at over 200 
institutions. We have attracted $162 million in private sector 
matching funds and over $140 million in venture capital, 
created 25 new businesses in the closed cities, and thereby 
facilitated the downsizing of the weapons complex in Russia.
    We have worked very closely with the Department of State's 
International Science and Technology Centers in carrying out 
this effort. We have also focused heavily, working with both 
the Departments of State and Defense, in bolstering border 
security as a so-called second line of defense. Our portion is 
to develop and employ nuclear detection equipment at key border 
crossings. We have installed radiation detection equipment at 
39 sites in Russia. We also maintain radiation detection 
equipment in more than 20 countries in the Baltics, Central and 
Eastern Europe, Central Asia, and the Mediterranean.
    We are working with our Russian counterparts to shut down 
the three reactors in Russia that are still producing weapons-
grade plutonium, and we are coordinating with them to return 
Russian origin fresh and spent fuel to Russia. Although delayed 
by disputes over liability, we continue to work toward the 
elimination of 34 metric tons of Russian plutonium.
    I understand that this committee wants to focus today 
primarily on the Global Partnership. It is important to 
recognize that our efforts are not limited to the former Soviet 
Union. The Department of Energy is currently working with over 
20 countries on a variety of nonproliferation activities 
ranging from export controls to material security.
    Two specific examples are the Megaports Initiative and the 
Global Threat Reduction Initiative announced by the Secretary 
of Energy in Vienna last month. The Megaports Initiative is a 
good example of the administration's policy of working 
cooperatively among Departments. It is a partnership between 
the Homeland Security Bureau of Customs and Border Protection, 
the Department of State, and our own Department to install 
radiation detection equipment at major ports. It builds on the 
work in Russia and is an example of how our G-8 Global 
Partnership work is leveraged to provide improved worldwide 
security.
    We have installed the first portal monitors in Rotterdam. 
We will be installing monitors at Piraeus, Greece, by next 
month and we are currently engaged with a number of other 
countries for additional installations.
    As both of you mentioned, in May, Secretary Abraham 
announced the Global Threat Reduction Initiative to expedite 
removal and security of worldwide nuclear and radiological 
materials. Here, as with Megaports, we are building on 
experience within the former Soviet Union.
    We face some challenges. Because our non-proliferation 
programs are cooperative, the progress we make depends on 
complex negotiations with Russia and other countries. Some of 
our challenges include liability. That has perhaps been the 
most frustrating area. We seek nothing more than what the 
Russians have agreed to many times in the past. This issue is 
being dealt with at very senior levels and I am hopeful it will 
be resolved in the near future.
    We also continue to work on questions of transparency and 
access, where our problems are balancing Russian desire to 
preserve secrets with our need to ensure that taxpayer money is 
being spent for the purposes appropriated. In Russia we have 
had remarkable access to sensitive sites and we are now engaged 
in a pilot project that will test new procedures that will 
allow access to even more sensitive sites, the so-called serial 
production facilities.
    Finally, contracting is a time-consuming and complex 
process. Even after we have agreement in principle on a non-
proliferation program, actually implementing that program 
requires time to develop agreed statements of work. As 
Secretary Bolton mentioned, sound business practices require 
that we do more than just ship money.
    To meet these challenges, we are taking a number of steps. 
First and foremost is the close cooperation between the 
Secretary of Energy and his Russian counterpart. Overcoming 
these challenges has been a priority for both of them.
    Second, our experts, working with experts from the 
Departments of State and Defense, are leveraging our decade of 
experience to try and find resolution to these issues through 
day to day negotiations.
    Finally, we continue to work on creative approaches such as 
new contracting mechanisms, revised procedures, expanded use of 
the International Science and Technology Centers to do work 
previously done under the Nuclear Cities initiative, and a 
number of other work-around procedures.
    I am proud of the progress our program has made in moving 
toward the vision of the Global Partnership. I am proud of the 
manner in which we have expanded our activities to meet the 
complex threat of our time. We will continue working with our 
colleagues in State and Defense to try to have a comprehensive, 
effective capability.
    Mr. Chairman, Senator Biden, this concludes my prepared 
remarks and I look forward to your questions.
    [The prepared statement of Mr. Brooks follows:]

              Prepared Statement of Hon. Linton F. Brooks

                              INTRODUCTION

    Thank you, Mr. Chairman and members of this committee, for the 
opportunity to appear before you today to discuss the nonproliferation 
efforts of the National Nuclear Security Administration (NNSA). Before 
discussing our specific activities, I want to express how critically 
important I consider your contributions, both past, present and future, 
to the United States' efforts to prevent the spread of weapons of mass 
destruction (WMD). Your continued support and interest in stopping the 
proliferation of WMD demonstrates the committee's long-standing 
commitment to the national security of this country. I appreciate your 
strong support and I look forward to our continued work together.
    In his speech at the National Defense University (NDU) in February, 
President Bush stated, ``The greatest threat before humanity today is 
the possibility of secret and sudden attack with chemical or biological 
or radiological or nuclear weapons . . . America, and the entire 
civilized world, will face this threat for decades to come.'' To meet 
this challenge, the President asked that we confront it ``with open 
eyes, and unbending purpose.''
    The proliferation of nuclear weapons poses a grave threat to the 
United States and our allies. The demand for nuclear weapons is on the 
rise as both states of concern and terrorists are actively seeking the 
materials, expertise and technology to develop nuclear weapons. The 
Bush administration has made nonproliferation one of its top priorities 
and I believe we are making real progress to reduce this threat.
    The amorphous nature of this threat commands that our 
nonproliferation programs have the capability to evolve and adapt to 
thwart the efforts of our adversaries. Our acceleration of current 
programs and new initiatives in recent years demonstrates our 
commitment to prevent a nuclear or radiological event against the 
United States or our allies. The focus of my statement will be on just 
how we are adapting our programs, in concert with our international 
partners and the International Atomic Energy Agency (IAEA), to meet the 
challenges posed by the nuclear ambitions of states of concern and 
terrorists.

                    NNSA NONPROLIFERATION ACTIVITIES

    The Department of Energy's nonproliferation programs, now under the 
NNSA, have long been associated with reducing the proliferation threat 
posed by the former Soviet Union's (FSU) weapons complex. In the 
immediate aftermath of the end of the cold war, the nexus of 
deteriorating economic conditions and an expansive nuclear complex in 
the former Soviet Union justified aggressive programs to upgrade the 
security of the materials, expertise and weapons of the FSU; 
permanently dispose of surplus fissile materials; and end the 
production of plutonium. Our accomplishments, which I will be reviewing 
in detail shortly, support the progress that is being made in the FSU.
    While the FSU has been and remains a focus, the NNSA's programs 
have always been engaged in working with other countries and 
international organizations to address the global dimension of the 
nonproliferation challenge. The increased commitment to 
nonproliferation in both a strategic sense, outlined in the February 
NDU speech and dollars--a 60% increase since FY 01--has resulted in an 
invigorated sense of urgency and determination to reduce the threat 
rapidly. We have expanded efforts to gain international participation; 
accelerated existing programs; and identified and addressed emerging 
and existing threats not yet covered by our nonproliferation programs.
    The facts are we are faced with a number of proliferators, states 
of concern and terrorist networks that threaten United States and 
international security by actively pursuing nuclear weapons 
capabilities, technologies, and expertise. The NNSA plays a prominent 
role in responding to these WMD proliferation threats. We recognize the 
broad scope and complex nature of this threat, and understand that our 
programs must identify and address potential vulnerabilities within the 
nonproliferation regime before terrorists or rogue states exploit them.
    Our mission is to detect, prevent, and reverse the proliferation of 
WMD, while mitigating the risks associated with peaceful nuclear energy 
operations. We implement this mission by:

  <bullet> Conducting cutting-edge nonproliferation and national 
        security research and development;

  <bullet> Securing nuclear weapons and nuclear and radiological 
        materials at potentially vulnerable sites in Russia and across 
        the globe;

  <bullet> Reducing overall quantities of nuclear and radiological 
        materials;

  <bullet> Bolstering border security domestically and overseas;

  <bullet> Supporting international nonproliferation and export control 
        regimes;

  <bullet> Downsizing the nuclear weapons infrastructure of the former 
        Soviet Union; and

  <bullet> Mitigating risks at nuclear facilities worldwide.

    By addressing key elements of the proliferation spectrum, these 
activities play an essential role in strengthening United States and 
international security. Our efforts are making the world more secure.
    All of these developments support the need for a flexible suite of 
nonproliferation programs capable of rapidly addressing threats when 
they appear. There are many examples of such flexibility, but the 
verification of the dismantlement of the Libyan weapon of mass 
destruction and longer-range missile programs is a prominent example of 
where I see one of our nonproliferation activities heading in the 
future with a rapid response capability to remove and/or secure at-risk 
materials worldwide.

                      EVOLVING TO MEET THE THREAT

    The NNSA mission is focused on a single objective: denying states 
of concern and terrorists access to the materials, technology and 
expertise they would need to build or acquire a nuclear weapon, and to 
reduce their incentives to acquire such capabilities in the first 
place. As I mentioned the convergence of international and domestic 
events have resulted in the acceleration and expansion of 
nonproliferation initiatives worldwide.

          ACCELERATING AND EXPANDING NONPROLIFERATION EFFORTS

    The NNSA currently works with over 70 countries on a variety of 
nonproliferation activities ranging from export control to the security 
of fissile material. There are many efforts worth discussing, but I 
will focus on three of our accelerated and expanded nonproliferation 
efforts since 2001: the international Mega-ports Initiative deploying 
radiation detection capabilities at major overseas ports; the new 
effort to provide security upgrades for the Russian Strategic Rocket 
Forces; and, finally, the Global Threat Reduction Initiative recently 
announced by the Secretary of Energy in Vienna, Austria, on May 26.

                        THE MEGAPORTS INITIATIVE

    Utilizing expertise and lessons learned from the Second Line of 
Defense (SLD) Program's installation of radiation detection equipment 
in Russia, NNSA in cooperation with the Department of Homeland 
Security's Bureau of Customs and Border Protection is working to make 
technical resources available to complement Customs' Container Security 
Initiative (CSI) efforts in working with international ports. This 
provides law enforcement officials with an opportunity to pre-screen 
the bulk of the container cargo in the world trade system for weapons 
of mass destruction and nuclear and other radioactive materials that 
could be used in a nuclear weapon or a radiological dispersal device.
    As part of this process, and with the concurrence of the foreign 
government, SLD teams are available to evaluate seaport vulnerability 
to illegal shipments of nuclear and other radioactive materials that 
present a proliferation concern and to recommend and/or potentially 
deploy radiation detection equipment to facilitate the pre-screening of 
cargo bound for the U.S.
    DOE has installed the first radiation portal monitors at the Port 
of Rotterdam, ECT Delta Terminal that processes about 5% of all 
containers shipped to the U.S. The final phase of installation of 
radiation detection monitors at the Port of Piraeus, Greece is underway 
and is due to be operational in July 2004. The NNSA is currently 
engaged in negotiations with numerous countries in Asia, Europe and 
South America.

          MATERIAL AND WEAPON SECURITY ACCELERATION ACTIVITIES

    Another new and accelerated nonproliferation effort is to upgrade 
security at 25 sites of the Russian Strategic Rocket Forces. This work 
has commenced on an accelerated timetable. Ten years ago I would have 
never imagined we would have access to these facilities. We plan to 
complete security upgrades at all of the sites by 2008.
    We have also accelerated existing programs to provide security 
upgrades at Russian Navy nuclear facilities and the 600 metric tons of 
fissile material in the FSU. The completion date for the Russian Navy 
nuclear warheads was moved from 2008 to 2006. This includes 39 sites 
that house both nuclear fuel for submarines and nuclear warheads. We 
have also accelerated our existing work to secure the 600 metric tons 
of fissile material identified throughout the FSU. The completion date 
was moved up by two years to 2008. We fully expect to meet these 
aggressive, timetables, given the necessary access and resources.

                   GLOBAL THREAT REDUCTION INITIATIVE

    On May 26, in Vienna, Austria, Energy Secretary Abraham announced 
the Global Threat Reduction Initiative to expedite the removal and/or 
security of vulnerable nuclear and radiological materials worldwide. To 
carry out the Initiative, the Secretary has directed the NNSA to 
consolidate and accelerate the Department's nuclear materials removal 
efforts, and complete a comprehensive inventory of research reactors 
and vulnerable nuclear materials worldwide to rapidly identify and 
address any gaps in current security coverage and recovery or removal 
efforts.
    We intend to accelerate existing removal and security timelines by 
as much as fifty percent, focusing on the highest risk materials as 
immediate priority recoveries. In addition to accelerating our removal 
timelines, we intend to: Develop a combined diplomatic and operational 
action plan to identify specific materials and sites in prioritized 
fashion; Establish a capability to respond to emerging and 
unanticipated threats requiring rapid removal of nuclear or 
radiological materials or equipment--similar to our recent efforts in 
Libya; and provide security enhancements to vulnerable nuclear and 
radiological materials of proliferation concern either as an interim 
measure until materials are removed or as a long-term mitigation action 
to secure the materials in-place.
    I would now like to detail our core mission activities and 
highlight some of our most recent accomplishments in each of these 
areas.

                            ACCOMPLISHMENTS

    The President's recent speech at the National Defense University 
included several nonproliferation measures designed to strengthen U.S. 
national security. Among his proposals, the President underscored the 
need to address the demand for the most critical elements of the 
nuclear fuel-cycle, enrichment and reprocessing, as well as a renewed, 
stronger approach towards the implementation of safeguards.
    The United States is working directly with the members of the 
Nuclear Suppliers Group and with the Zangger Committee to strengthen 
the nuclear export control regime, that includes making the adoption of 
IAEA's Additional Protocol a condition of supply and banning the spread 
of enrichment and reprocessing technologies. Recognizing the need to 
work with emerging nuclear technology suppliers and transshipment 
states, NNSA increased our work in the area of export controls by $6 
million.
    Our work to secure nuclear materials, nuclear weapons, and 
radiological materials at potentially vulnerable sites in Russia and 
elsewhere is one of our most important missions. We are promoting the 
further safeguarding and physical protection of nuclear materials at 
nuclear sites worldwide, including the states of the former Soviet 
Union and in over 40 countries with U.S.-origin material. The United 
States and Russia continue to accelerate cooperative nonproliferation 
efforts, and we are making progress.
    For example, we have accelerated the timeline for securing 600 
metric tons of weapons-usable nuclear material at 55 sites in Russia 
and Eurasia by 2008. By the end of FY 04, we have upgraded the security 
of 46% of the material and compared to 2002, we tripled the amount of 
new material placed under comprehensive upgrades in 2003.
    We are also working internationally to consolidate and secure 
fissile materials and at-risk radioactive sources. We have upgraded 
security at thirteen nuclear facilities in Eurasian states outside 
Russia, holding 3.5 metric tons of weapons grade nuclear material, to 
meet international physical protection guidelines. Although our work 
continues to expand beyond the FSU, we are still working in the region 
to improve security at Russian Navy and Strategic Rocket Forces 
facilities--among the most sensitive facilities in Russia. We have 
expanded security upgrades of Russian Navy and Strategic Rocket Forces 
nuclear weapons sites and by the end of FY 04 will have secured 90% of 
the 39 Russian Navy warhead sites and initiated security upgrades at 
two Russian Strategic Rocket Forces sites.
    Downsizing the nuclear weapons infrastructure of the FSU remains an 
important activity. Since the fall of the Soviet Union, we have worked 
hard to reduce the potential for diversion of WMD expertise, materials 
and technologies to terrorists and proliferant states. To meet this 
objective, we are working to redirect WMD scientists, engineers and 
technicians to peaceful work and reduce WMD complexes by downsizing 
facilities and creating sustainable civilian alternatives. Through the 
Russian Transition Initiatives Program, we have engaged over 14,000 
former weapons scientists at over 200 institutes across the FSU in 
peaceful and sustainable commercial pursuits, attracting $162M in 
private-sector matching funds and over $140M in venture capital and 
other investments, created 25 new businesses in the closed cities, and 
facilitated the downsizing of Russia's nuclear weapons complex.
    Late last year, Secretary Abraham established the Nuclear and 
Radiological Threat Reduction Task Force, which represents another 
important step in combating the threats posed by radiological 
dispersion devices or ``dirty bombs.'' We created this Task Force to 
identify, secure, store on an interim basis, and facilitate the 
permanent disposition of high-risk radiological materials that could be 
used as a radiological dispersal device, both in the United States and 
overseas; and identify the most vulnerable research reactors worldwide 
and develop an action plan to mitigate these vulnerabilities. Working 
in close concert with foreign countries and the International Atomic 
Energy Agency, or IAEA, this Task Force will ensure that the NNSA has 
the capability to address the full spectrum of radiological threats, 
including locating and securing vulnerable radiological materials 
overseas, and recovering and securing unwanted and abandoned 
radioactive materials within the United States that pose security and 
health risks. The activities of the Nuclear and Radiological Task Force 
will now be under the GTRI Initiative.
    Bolstering border security as a second line of defense is another 
important component of our strategy. To implement this core mission, we 
develop and employ nuclear detection equipment at key border crossings, 
airports, and ports, including major seaports or ``megaports,'' 
worldwide. We also work hard to assist and train customs officials at 
home and abroad to detect the illicit trafficking of nuclear and 
radiological materials as well as identify dual-use commodities that 
might be used in WMD programs. Our hard work and cooperative efforts 
are paying dividends. For example, we have installed radiation 
detection equipment at 39 sites in Russia to detect, deter and 
interdict the trafficking of nuclear and radioactive materials. Russia 
has also supplemented our cooperative border security efforts by 
upgrading and installing similar radiation detection equipment at many 
more of their prioritized border checkpoints. We maintain radiation 
detection equipment in more than 20 countries in the Baltics, Central 
and Eastern Europe, Central Asia, and the Mediterranean. As mentioned, 
the Megaports Initiative is currently working at the Port of Rotterdam 
in The Netherlands and the Port of Piraeus in Greece.
    We are not alone in our efforts, as Under Secretary Bolton has 
noted. The international community and recipient countries have 
responded with strong support to advance our mutual nonproliferation 
interests. The G-8 Global Partnership has committed $20 billion dollars 
over the next 10 years to work on nonproliferation issues in Eurasia. 
We are working cooperatively with our G-8 partners to leverage the 
funding that we have committed to Russia and the work in which we are 
involved. In another program, we are working with India and Pakistan to 
help them cooperatively work to reduce regional tension and find means 
to stop cross-border infiltration and avoid conflict.
    Our cutting-edge research and development program improves the 
United States' ability to detect and deter WMD proliferation and 
strengthen treaty regimes such as the Nuclear Non-Proliferation Treaty. 
Our R&D programs serve as the technical base that provides operational 
agencies--including the Department of Defense and the Intelligence 
Community--with innovative systems and technologies to meet their 
nonproliferation missions. For example, we have tested laser-based 
remote sensing systems to detect and characterize effluents from 
suspect WMD production facilities, and are designing miniature 
synthetic aperture radar sensors to fly on board unmanned aerial 
vehicles.
    Our technology-base programs yielded several radiation detection 
systems now being used by the Department of Homeland Security, and 
evaluated at the test bed that we established at the Port Authority of 
New York and New Jersey. And we have developed and produced nuclear 
explosion monitoring sensor payloads for deployment on Global 
Positioning System and Defense Support System satellites, began 
designing the next-generation of space-based sensors, and are 
developing new tools to lower the threshold for detecting the yield of 
any nuclear explosion by two orders of magnitude. We continue to seek 
out improved solutions to emerging proliferation problems, and to 
coordinate our efforts with our U.S. Government partners.
    Strengthening international nonproliferation and export control 
regimes is another essential cornerstone of our efforts. We support 
U.S. nonproliferation treaties, initiatives, and agreements and work to 
strengthen international safeguards to detect clandestine nuclear 
programs and diversion of nuclear material from declared programs. By 
working with our international partners, we have accomplished a great 
deal to further the world's nonproliferation regime. Some of our recent 
accomplishments include Secretary Abraham's signing of the Statement of 
Intent on Peaceful Uses of Nuclear Energy and Nuclear Nonproliferation 
and Counterterrorism with Chairman Zhang Huazhu of the China Atomic 
Energy Authority this January in Beijing. In addition, we opened a 
Cooperative Monitoring Center in Amman, Jordan that will serve as a 
regional forum to discuss technical solutions to proliferation and 
other regional security problems. And we are spearheading changes to 
Nuclear Supplier Group Guidelines to make the prevention of nuclear 
terrorism an explicit export control objective.
    To reduce stockpiles and available quantities of nuclear materials, 
the United States is working with Russia to irreversibly blend-down at 
least 500 metric tons of highly enriched uranium (HEU) from dismantled 
warheads. Over 200MT has been eliminated. We are also working with our 
Russian counterparts to shut down the three reactors in Russia that are 
still producing weapons-grade plutonium, and we are coordinating with 
them to return Russian-origin fresh and spent HEU fuel to Russia. We 
further reduce quantities of weapons-usable HEU by converting research 
reactors in the United States and abroad to use low-enriched uranium 
(LEU) and working to eliminate 174 metric tons of HEU in the United 
States.
    The NNSA has also worked on a number of international operations to 
remove at-risk materials from vulnerable sites worldwide. We worked 
proactively with our colleagues at the Departments of State and Defense 
and international partners to dismantle Libya's WMD infrastructure. 
Currently, we are playing a leading technical role in the support of 
the operation to verify the dismantlement of Libya's nuclear program, 
and are playing a similar role in preparing for the complete, 
verifiable, and irreversible dismantlement of North Korea's nuclear 
programs, in the event of a major breakthrough. In 2003, we helped 
remove 17 kilograms of Russian-origin HEU from Bulgaria and returned it 
to Russia for safe storage. We also worked with Russia and the IAEA to 
return approximately 14 kilograms of fresh Russian-origin HEU from 
Romania to Russia to be down-blended and used for civil nuclear 
purposes.
    Our final core mission objective is to mitigate risks at nuclear 
facilities worldwide. To reach this goal, we are providing assistance 
to Russia and Eurasian countries to establish enhanced emergency 
response programs, and we are working cooperatively with Russia to 
improve the safety and security of its nuclear weapons during 
transportation and storage in connection with dismantlement. We are 
focused on improving nuclear emergency management practices worldwide 
by working with the IAEA and other western countries. For example, we 
worked to strengthen the IAEA's notification capability in the event of 
a nuclear emergency and are assisting Ukraine, Russia and Japan in 
establishing emergency management training programs.

                               CHALLENGES

    Preventing the proliferation of WMD materials, technology, and 
expertise is a major undertaking, and developing a multi-layered 
approach to address these threats has not been without its challenges. 
In implementing our nonproliferation programs, we continue to face 
formidable obstacles.
    Looking back at what our program has accomplished on a number of 
nonproliferation fronts in Russia and other former Soviet states in the 
short amount of time that has elapsed since the breakup of the Soviet 
Union is really quite remarkable. At the same time, given the scope of 
our work and need for our programs to address the complexities of 
today's proliferation threat, we do face challenges including liability 
issues, transparency and assurances, access, and concluding contracts 
and agreements.
    Since our nonproliferation programs are cooperative in nature, the 
progress we make is largely dependent on complex negotiations with 
Russia and other countries. Consequently, we will continue to face 
challenges in our work, particularly in Russia. I will now discuss 
these challenges in more detail.

                               LIABILITY

    United States and Russian nonproliferation programs must have 
adequate liability protection for contractors performing work in 
Russia. Currently, the two sides disagree on the form of liability 
protection and this disagreement has resulted in the interruption of a 
few of our programs, including Plutonium Disposition and Nuclear Cities 
Initiative. We regret we have not made as much progress as we had 
hoped. While differences over liability have held up our efforts 
relating to disposal of surplus weapon-grade plutonium both here and in 
Russia, the administration is committed to this important 
nonproliferation program and has been addressing this issue at the 
highest levels. The administration decided in early May to continue its 
support of the program by pursuing measures to allow cooperation to 
proceed on the design and licensing phase for Russia's plutonium 
disposition fuel fabrication facility pending resolution of liability 
for the construction and operations phases.

                      TRANSPARENCY AND ASSURANCES

    Achieving adequate transparency is an ongoing problem for many U.S. 
nonproliferation initiatives with the Russian Federation. Assuring that 
we are, in fact, securing the materials and facilities we think we are 
will always be a challenge. The NNSA will continue to work both 
bilaterally and multilaterally to ensure that our mutual goals are met 
and that cooperative programs remain accountable, are preventing the 
proliferation of WMD, and promote long-term self-sustainability.

                                 ACCESS

    Nonproliferation programs often require access to other countries' 
most sensitive nuclear facilities. In Russia we have remarkable access 
to less sensitive sites. While we have had success, we must continue to 
work to gain access to Russia's more sensitive sites and facilities. 
Secretary Abraham and Russian Director Rumyantsev of the Federal Atomic 
Energy Agency have established a working group to address these issues. 
We are testing new procedures for access to more sensitive Minatom 
facilities in a pilot project. Reaching agreement on access to these 
sites is a major challenge, but is one of the final steps to secure the 
large amounts of nuclear material remaining. After access agreement is 
reached, we will assure that its terms are honored.

                        CONTRACTS AND AGREEMENTS

    Finally, concluding contracts and agreements is a complex process. 
Even after there is agreement in principle to undertake a given 
nonproliferation program, actually implementing such a program requires 
time to bear fruit. Achieving concurrence on written agreements to move 
forward is often the first challenge to overcome. After the requisite 
agreements are in place and agreed to by both parties, objective and 
realistic milestones have to be developed before any contract can be 
awarded, and performance metrics established to address how those 
milestones will be met. Overall program success is incumbent on sound 
fiscal stewardship, and we believe that we are taking the necessary 
steps to effectively maximize program success rates.
    There are a number of steps we have undertaken to meet these 
challenges. First, the Secretary of Energy has developed a close 
relationship with the Director of the Federal Atomic Energy Agency and 
overcoming these challenges in the nonproliferation arena has been a 
priority. Secretary Abraham intends to continue to work constructively 
with Director Rumyantsev. Second, at the working level, experts from 
our programs leverage over a decade of experience and relationships 
with their Russian counterparts to resolve contentious issues through 
sustained negotiations.

                               CONCLUSION

    To summarize, I would again draw your attention to the progress our 
program has made in recent years and the acceleration with which we 
have expanded our activities to meet the complex and unpredictable 
security threats of our time. In doing so, we have strengthened the 
security of our nation and are making the world a safer place. Working 
in concert with other U.S. Government agencies, the NNSA will continue 
to promote high-level political commitment among our cooperative 
country counterparts to establish an effective, comprehensive 
capability that can proactively react to an evolving threat 
environment. Our focus is on stemming the proliferation of WMD 
materials, technology, and expertise, and we will continue to work 
diligently and responsibly to counter that threat.
    Mr. Chairman and members of this committee, this concludes my 
prepared statement. I would be pleased to answer any questions that you 
and members of this committee may have.

    The Chairman. Thank you very much, Secretary Brooks.
    We will have a first round of questions limited to 10 
minutes. I will commence the questions. The action plan adopted 
at Sea Island again calls on Russia to cooperate with the 
Global Partnership, but as we have heard from our colleague 
Pete Domenici, such issues as access, military, other 
bureaucratic hurdles continue to frustrate progress for Nunn-
Lugar, plutonium disposition, and similar partnership projects. 
Could you inform us exactly on what the status of the 
Cooperative Threat Reduction Umbrella Agreement is? Do you have 
any information on when President Putin plans to submit it to 
the Duma for ratification?
    Now, I say parenthetically, prompted by my colleague, that 
when Senator Biden and I had an opportunity to visit with the 
President recently, the subject was principally Iraq, but I 
took advantage of that opportunity to ask the President 
directly, what about this liability business? He directed 
Condoleezza Rice, who was sitting there in the Oval Office: 
``Take this up.'' She took it up, but she has not made headway.
    This is very serious. I just wonder what it takes to move 
it. Having been in this business--and both of you have been in 
it about as long as I have--we understand there are 
bureaucratic procedures in Russia. At the highest level, is 
President Putin aware of this dilemma? I ask this not only in 
the context of Cooperative Threat Reduction, which has been 
going on like the brook for some years, but with regard to all 
of the other nations that are involved in this. We are getting 
Russians coming in from conferences, pointing out how little is 
being done in Russia, how the money is not being spent, how 
countries are making commitments, but nothing is happening.
    The irony of this situation is profound. So please 
illuminate, if you can, what is the status, and what is going 
to happen?
    Mr. Bolton. Mr. Chairman, one of the reasons that we felt 2 
years ago that the Global Partnership would be a good 
initiative to press with the Russians was precisely the feeling 
that there were not only opportunities for additional funding 
that we could get from our close friends and allies to increase 
the resources available, but that it might also be through 
getting more nations than the United States, to put it 
precisely, involved that we could help clear up some of the 
problems that we and other countries had encountered.
    Let me just give you one example if I might. Japan has a 
substantial interest in the dismantling of nuclear attack 
submarines, many of which are stationed at Vladivostok and 
places proximate to the Japanese home islands. Some number of 
years ago, the Japanese Diet had appropriated $200 million for 
Japanese programs in Russia for the dismantlement of these 
attack submarines. But the time of our discussions in 2002, 
essentially none of that money had been expended because the 
Japanese could not get cooperation with the pertinent Russian 
agencies.
    We have been working with the Japanese. We think--they have 
largely taken the lead, of course. We think they have begun to 
make progress in breaking through some of the bureaucratic 
obstacles that they met in Russia. That is critical 
politically, and I am sure this committee can understand that, 
in Japan, for the Government of Japan to go back to the Diet 
and say: Now we are actually spending the $200 million that you 
have appropriated, our fair share of the $10 billion pledge 
under the Global Partnership is really about $1.5 billion more 
than we have pledged and, now that we have begun to solve our 
problems with Russia, could the Diet appropriate that money.
    That is one example that I think is illustrative of some of 
the problems that Linton Brooks was explaining in the 
operational aspects of how to get these tasks under way. But 
there have been other difficulties as well, as you have 
indicated. For example, we have had recurring problems with 
Russian desires to tax CTR and other American funds. The idea 
is Congress appropriates money, expenditures need to be made in 
Russia for the purchase of equipment, the rental of facilities, 
using the tax dollars you had appropriated, and from time to 
time various Russian governmental agencies propose to tax that 
money, so that not only do we get the privilege of spending our 
taxpayers' dollars, we get the privilege of paying, having our 
taxpayers' dollars pay Russian taxes, which we have 
consistently refused.
    I think that principle is now more or less established, but 
that has been--some of our G-8 partners have found in the past 
year that that was an obstacle that needed to be overcome.
    The issue of liability is another such question. The 
original Nunn-Lugar program operated in the Russian Federation 
from 1992 to 1999 under an umbrella agreement that was 
negotiated back in 1991 and 1992. That agreement was submitted 
to the State Duma and was approved and therefore carried the 
force of law. The umbrella agreement had excellent provisions 
on access, on financial transparency, on prohibition of 
taxation, and on military.
    The provision on military, which essentially was a blanket 
exemption from liability for all activities funded under the 
Nunn-Lugar program, was patterned on the precise language used 
extensively around the world in USAID bilateral development 
assistance programs, that taxpayers' funds, whether expended 
directly from the government or through contractors, were 
exempt from liability. The Nunn-Lugar program functioned quite 
well under that for 7 years.
    In 1999, the umbrella agreement expired of its own terms 
and was signed again by the Governments of the United States 
and the Russian Federation. Since 1999, the Russian Federation 
has not submitted the umbrella agreement to the Duma for 
ratification. It has been applied on a de facto basis. But 
despite efforts both in the prior administration and in this 
administration, as I say, the government has not yet submitted 
it.
    Now, we continue to press them because we think it is very 
important that the liability provisions that have been 
enshrined in the Nunn-Lugar program and have worked quite well 
for the past 12 years be given the full force of Russian law. 
Being applied de facto, we are at risk. We are at risk that the 
provisions, because they do not carry Diet approval, could be 
ignored, thus exposing the United States and its contractors to 
substantial risks of liability.
    Now, the issue of how to deal with the liability 
disagreement on plutonium disposition, which is still in 
negotiation between us, is really the most important liability 
question that remains outstanding. I would defer to Linton 
Brooks on how we are handling this operationally to reduce 
delays in the program by proceeding with design and regulatory 
approval while we continue to negotiate the liability question.
    But the issue that divides Russia and the United States at 
this point is whether we are going to get liability protection 
equivalent to that which we have operated under for the past 12 
years or whether we are prepared to accept a lesser liability 
protection. We have asked and, as I say, we have pressed the 
Russian Government on numerous occasions to submit the CTR 
umbrella agreement for Diet ratification, because we fear if we 
accept lesser liability protection on another program we may 
lose the excellent liability protection that we have under CTR, 
thus jeopardizing that program.
    Now, I will close with just one further remark and I think 
it is important to understand this context, that is not 
immediately apparent until you dig into these liability 
questions. The Russian Federation fundamentally does not have a 
doctrine of sovereign immunity, as the United States does. I do 
not want to say there is no sovereign immunity protection in 
Russia. That would be an overstatement. But fundamentally they 
do not have a doctrine of sovereign immunity.
    The reason for that is not hard to understand. Back in the 
days of the Soviet Union, there was not a lot of money to be 
made suing the Soviet state, so they did not have to elaborate 
the kind of doctrines that we have and that are spelled out in 
the Federal Tort Claims Act.
    The consequence is that the Russian Government has feared 
that liability might be imposed on it in the case of an 
incident of liability involving these programs, and their 
response has been fundamentally, not to develop an adequate 
doctrine to protect the Russian fisc, but to shift liability to 
the United States. I think you can understand on behalf of our 
taxpayers why that is not a shifting of the risk of liability 
that we are prepared to accept.
    Nonetheless, I think that we are addressing this issue in 
negotiations. We have attempted to move into design and 
regulatory approval activity in the plutonium disposition 
program while we continue to negotiate the liability issue. And 
it is something that we are committed to resolving at the 
highest level of our government.
    The Chairman. Well, thank you very much, Secretary. You 
have certainly illuminated the problems, each one of them, 
explicitly, but not really the solution. I appreciate the fact 
that you say you are proceeding to negotiate with the Russians 
regarding and these profound problems in terms of their law.
    Where do we need to take this? This is the question Senator 
Domenici was asking. At your level, can you get the job done? 
If not you, can Secretary Powell do it? If not Secretary 
Powell, can the President do it with Putin?
    This is very, very serious. I can think of no other set of 
issues involving the G-8 partnership, plutonium, and the 
continuation of the Nunn-Lugar efforts, that requires more 
concerted activity. To illuminate the whole problem again is 
helpful for Americans who seek to understand the disputes we 
have been involved in for 10 years. What we need is some idea 
of who is going to do what, and at what level, and whether 
Senator Biden and I and the committee should approach the 
President, as he has suggested.
    This is very serious. It is not occurring. My time has 
expired for the moment, but please respond if you will.
    Mr. Bolton. If I could, yes. This has been addressed at the 
Presidential level and the Russians have committed to us, had 
committed to us, they would submit the CTR umbrella agreement 
for ratification by the state Duma immediately on the 
conclusion of their recent elections. And it still has not 
happened.
    We feel that the ratification of the CTR umbrella agreement 
is critical, because whatever liability provisions are worked 
out on other programs--and it is not inevitable that the CTR 
liability provisions would apply, but it is critical that we 
not undercut or weaken the liability provisions we have under 
CTR.
    It has been a matter that the Russians have addressed with 
other governments, which have accepted lesser liability 
protections. Of course, that is their sovereign decision to 
make. I think the European countries do not have the tort 
liability problems that we are only too painfully aware of in 
this country and perhaps they are willing to accept that.
    We are prepared to see what we can negotiate with the 
Russian Government, but we feel, after waiting for close to 5 
years now, that they really ought to submit the CTR liability 
agreement to the Duma. We do not have much doubt, especially 
after the recent Duma elections, that if it were submitted the 
Duma would approve it. But without Duma action, we remain at 
risk on CTR.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. If you know, did the President raise the 
failure to keep the commitment with Putin, to submit the CTR at 
Sea Island?
    Mr. Bolton. I do not have a readout of the bilateral 
discussion at Sea Island at this point, Senator. So I am afraid 
I cannot answer the question.
    Senator Biden. The bottom line is there really is not 
much--I mean, I am not being a wise guy when I say this is kind 
of above your pay grade right now. I mean, there is nothing to 
negotiate. There is nothing to negotiate as it relates to CTR, 
anyway. We have a firm plan, we do not want to change from the 
original agreement under Nunn-Lugar, and you believe and the 
administration believes if submitted it would be ratified the 
same way as Nunn-Lugar has proceeded.
    So you keep talking about negotiating. What are we 
negotiating?
    Mr. Bolton. The issue for plutonium disposition is whether 
we are prepared to accept a liability protection provision that 
is less comprehensive than in the CTR.
    Senator Biden. No, I got that. But I thought you said to me 
sequentially, you are not going to do anything until CTR is 
submitted. In other words, you are not going to agree on the 
plutonium side to a lesser liability coverage that exists under 
Nunn-Lugar, is that correct?
    Mr. Bolton. I think our feeling has been as a negotiating 
matter that losing the leverage of the protection of CTR would 
put us in a vulnerable position.
    Senator Biden. I am not taking issue with you. I just want 
to make sure I understand it.
    Mr. Bolton. I would be happy for some negotiating advice if 
there is another way around this.
    Senator Biden. No, I am not suggesting. All I am trying to 
do is make sure I understand this in a very simple, 
straightforward way. It is a legitimate position you have 
taken. One is, we are not going to negotiate any lesser 
standard until we get the standard we have had in the past for 
CTR. Then we may or may not negotiate a lesser standard than 
the CTR standard as it relates to other initiatives, right? 
That is the bottom line?
    Mr. Bolton. Exactly correct.
    Senator Biden. OK. So my point is you are out of business. 
Not a damn thing you can do. If you accept that position, there 
is nothing you can do. So it seems to me it is real simple.
    Mr. Bolton. Until the Russians----
    Senator Biden. That is right.
    Mr. Bolton [continuing]. Throw in their commitment.
    Senator Biden. Exactly. No, that is all I am saying. Again, 
I just want to make sure I fully understand this. So it is real 
simple. It is above your pay grade. You are out of the deal. 
There is no sense in you talking to anybody, and so we really 
should go to see the President. The President has got to pick 
up the phone, get on the line, and find out whether Putin is 
going to keep his commitments.
    What I would suggest you be doing is figuring out whatever 
leverage points we have with Putin. There are a lot of things 
he wants and needs right now. So I suspect you should be doing 
something else other than talking about liability. You all 
should be figuring out what are the leverage points for Mr. 
President. Were the chairman the President and I in your 
position, I would be having my staff figure out what are the 
three or four things you can pick up the phone, Mr. President, 
and call Putin about and say: By the way, I need this now; now, 
you need A, B, C, and D; this is the deal I will make. That is 
the negotiation, not at your level.
    You are at a very significant level. I am in no way 
diminishing your role, except that now I understand clearly, 
and I am not taking issue with it, that if you are not willing 
to accept a lesser standard as the Europeans have in some 
circumstances, and CTR is the place everything starts. Nothing 
else is going to happen until CTR is finished, which means we 
are in trouble unless something happens on CTR very quickly.
    I just want to make sure that I got that straight. And 
again, I am not taking issue with it. I am just making sure I 
understand it.
    Mr. Bolton. Let me make one point, and again I think I 
should defer to Linton Brooks in terms of the scheduling. But 
we have sought to in the plutonium disposition area, to try to 
resolve the liability question while other work continues, so 
that the plutonium disposition design and regulatory approval 
work, which is not as urgent in its requirement to have a 
liability issue since the likelihood of an incident of 
liability is remote, while that work proceeds.
    Senator Biden. No, I got that. You are not in a standstill. 
Linton, you are working at this. You are trying to get 
everything in place so that when it comes time for the part 
that relates to where there could theoretically be exposure, no 
pun intended, liability, that hopefully by that time the rest 
of it will be done.
    But you are not negotiating liability, are you?
    Mr. Brooks. No.
    Senator Biden. No. So what the heck are we talking about 
here? There is no negotiation going on relative to liability. 
There is progress being made, attempting to be made, in every 
area that takes you up to the point where you cannot go any 
further unless the liability position is resolved, and that 
seems real simple. The President of the United States of 
America, beginning, middle and end. It is in his lap. It is a 
matter of how important it is to him and whether or not he can 
push, and I think we should try to find out, not in this 
hearing, what it is that he is willing to, if anything--I mean, 
if there is nothing he can offer in return beyond the 
significant offer we are making to secure this material, then I 
am not sure what else can be done.
    Again, I am not taking issue. You are moving along. You are 
moving along as far as you can at this point.
    Let me ask you a larger question. To either of you, and I 
would like either of you to respond as quickly as you could, if 
you could. Do our allies share the same sense of urgency 
regarding the nonproliferation programs? We recently--not 
recently. It has been a year now. We had a group of our 
counterparts over here--maybe it is a little longer than that, 
actually--from the NATO assembly, who focus specifically, as we 
do in this committee, on this issue of proliferation and 
particularly Russia. I sensed no sense of urgency in talking to 
them. I did not get any sense at the time that they thought 
they were in the game in a big enough way or should be in the 
game in a big enough way to secure these materials within 
Russia.
    I got a sense that the perusal of projects on the part of 
our European friends related more to their industrial and 
environmental concerns than it did to concerns relating to 
these materials getting into the hands of bad guys to do 
serious damage to them in Western Europe. Could you give me as 
honest an assessment as you can as to whether or not my 
perception is correct or incorrect? I would appreciate that.
    Mr. Bolton. Well, I do not think you can make a blanket 
judgment about all of them.
    Senator Biden. Let us start with France.
    Mr. Bolton. If you look at the extent of the projects that 
they have and the directions that they have been pursuing, I 
think they are struggling with many of the same difficulties in 
the states of the former Soviet Union that we are. I use the 
example of Canada, which took on the idea of the Global 
Partnership, made it its own initiative, was critical in 
getting this agreed by the G-8 at Kananaskis. They did all of 
the things internally in the Canadian Government that one can 
do, I think, to gear up for this project. They got cabinet 
approval, they got parliamentary approval. It has taken them 2 
years to negotiate an umbrella agreement with the Russians.
    I do not fault the Canadians for lack of a sense of 
urgency. I think it is a hard thing to do. I suspect that the 
point you have made about some of the industrial and commercial 
incentives that some of the European countries have are exactly 
right. But I do not doubt that they understand this is a 
problem that needs to be addressed. The French specifically 
have plutonium disposition as one of their priorities. They 
have made that clear to us and that was one of the reasons at 
Kananaskis why they were strong supporters of the Global 
Partnership.
    I can go through all of them one by one if you want.
    Senator Biden. That is all right. Maybe in writing I will 
submit that question to you.
    The G-8 agreed to, quote, ``deplore'' Iran's conduct and 
to, quote, ``urge Iran promptly to comply with its commitments 
and all IAEA board requirements.'' But it stopped short of 
calling for the IAEA Board of Governors to report this issue to 
the U.N. Security Council.
    Does this mean that the United States will not press for 
referral at this week's board meeting?
    Mr. Bolton. Senator, I can tell you, speaking personally as 
somebody who has been working to get the Iran matter referred 
to the Security Council for a year, that if I thought we could 
get it we would do it. That is where it deserves to be. One 
gets in these G-8 agreements the best one can get.
    In terms of what we expect out of the IAEA Board of 
Governors in Vienna this week, I can say I think with some 
measure of confidence we will get a very strong resolution that 
deplores Iranian lack of cooperation with the IAEA, that 
stresses that Iran has to do more to meet its commitment to the 
three European countries to suspend----
    Senator Biden. Will it deplore it enough to suspend the 
liquid natural gas investment agreement the Japanese and the 
French have reached?
    Mr. Bolton. I can speak with respect to the Japanese 
agreement for the exploitation of the field at Azadegan. They 
have got a clause in that that says that if the conclusion is 
the Iranians are continuing the pursuit of nuclear weapons that 
they have the ability to suspend that agreement. They have not 
yet reached that conclusion, although that is certainly our 
conclusion.
    Senator Biden. Does that conclusion mean if the conclusion 
is that they reached it, or if the conclusion that the board 
reaches it, or a conclusion that the Security Council reaches 
it?
    Mr. Bolton. I do not know the specifics of the Azadegan 
deal, but that is the discussion we have had with the 
Government of Japan. I regard the situation in Iran as an 
extremely important one that we have been trying measurably 
with Russia, with the European countries and Japan--and I might 
say that what our diplomacy has aimed at is getting this matter 
to the Security Council.
    Senator Biden. Thank you very much.
    The Chairman. Thank you, Senator Biden.
    Senator Nelson.
    Senator Nelson. Well, picking right up there on Senator 
Biden's questions about Iran, does the strong statement that 
the G-8 issued about Iran not being cooperative, does this 
statement signal an intent by the G-8 to hold them accountable 
and support our efforts?
    Mr. Bolton. I think, Senator, what it represents is a 
ratcheting up of the level of G-8 agreement than what was 
achieved at the Evian summit last year, where for the first 
time the G-8 issued a statement on proliferation and 
specifically dealt with questions of North Korea and Iran. I 
think in the intervening year there has been a very substantial 
pattern of Iranian failure to comply with its obligations under 
its safeguards agreement, obstructing IAEA inspectors, 
withholding information, and generally not being cooperative.
    I think Director General ElBaradei made that point in a low 
key but very clear way in his statement to the IAEA Board of 
Governors yesterday. We think that it is absolutely critical 
that the Iranian effort to achieve a nuclear weapons capability 
not succeed, and we have been in extensive diplomatic activity 
with all of the European countries involved, with Japan, and 
with Russia to do what we can do to get them to apply pressure 
to Iran.
    I think the mixed cooperation, the limited cooperation, 
that Iran has provided to the IAEA in the past year is due 
almost entirely to the level of international pressure that has 
been applied.
    Senator Nelson. Well, it looks like we were getting some 
progress going there with the international pressure, but now 
that seems to have evaporated.
    Mr. Bolton. I do not think it has evaporated. I think the 
Iranians are still on the defensive. I think they are feeling 
the pressure. You can see from their statements, their public 
statements, that they say quite regularly they have no 
intention of complying with the deal that they made with the 
United Kingdom, Germany, and France to suspend and then 
ultimately to cease uranium enrichment and reprocessing.
    If they were to pull out of that deal, I think there would 
be almost no question but that we would be able to get this 
matter into the Security Council. The Europeans have taken a 
different tactical view of how to handle the Iranian matter and 
we have worked with them on that.
    I think the combined pressure is reflected in the several 
resolutions, three to date, that the IAEA board has passed, 
have had their effect. It has not gone far enough. More work 
needs to be done. There is no question about that.
    Senator Nelson. Does Iran have a rocket that will reach, 
with a range to Israel?
    Mr. Bolton. Senator, it does. It has a very extensive 
ballistic missile program.
    Senator Nelson. The answer to that is yes?
    Mr. Bolton. The answer to that is yes.
    Senator Nelson. Therefore, if you put a nuclear weapon on 
the top of that rocket, you have got a problem.
    Mr. Bolton. You are absolutely correct.
    Senator Nelson. We have got our hands full.
    Mr. Chairman, since I have a little time left, let me ask 
you about North Korea. The G-8 also issued a statement 
supporting the six-party talks. Now, is this working?
    Mr. Bolton. Well, as you know, Senator, the six-party talks 
will reconvene in Beijing next week for their third session. 
They begin with a meeting of the working group that was 
established in the second session the first couple days of the 
week and then the plenary will meet July 23 through 26.
    We have been in preparatory discussions here in Washington 
this week with the Japanese and South Korean delegations and 
are preparing for the discussions next week in Beijing. We have 
made a very extensive effort to make the six-party talks work. 
We think this is the vehicle. We have recognized the enormous 
effort that China has made in organizing these talks and trying 
to see them through.
    I think that the ball at this point is in North Korea's 
court. We have, as you see from the G-8 statement, which 
reflects three of the parties in the six-party talks--Russia, 
Japan, and the United States--agreement that we want the 
complete, verifiable, and irreversible dismantlement of North 
Korea's nuclear weapons programs. The North Koreans have not 
yet acknowledged that they are going to have to meet that.
    But we continue to pursue this. We are gearing up for it, 
as I say, and we will make every effort to see if we cannot 
make progress on that next week.
    Senator Nelson. Mr. Chairman, these are two countries of 
which the interests of world peace is enormously threatened. It 
seems to me that one of the major foreign policy goals of our 
country ought to be at the end of the day those two countries 
cannot have a nuclear weapons capability. That is how I feel, 
and whatever you and Senator Biden can add to that that we 
ought to suggest that would speed this process, because it is 
not--it does not seem like it is going forward and sometimes it 
seems like it is going backward in both of those countries.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Nelson. I 
would respond to the Senator that clearly--and he has been 
active in these hearings--we are going to continue to talk 
about North Korea and Iran. These are extremely important 
situations. But today in a comprehensive context we are 
discussing the dilemma that Senator Biden mentioned, and that 
is that people were able to produce at least the basis for a 
nuclear weapon, but they could not produce the fissile 
material, thank goodness. One of the key factors, at least on 
the nuclear side, has been control of that. This is why there 
are categories of countries that may have fissile material, but 
others that we now have an opportunity to work with to relieve 
that issue.
    I want to ask you, Secretary Brooks. Secretary Abraham's 
program announced in Vienna is a comprehensive program. As I 
understand it, he has tried to take a look at all of the 
laboratories and facilities in over two dozen countries that at 
some point or other may have received nuclear technology, 
through various humanitarian efforts, such as the Atoms for 
Peace Program.
    Why is the Secretary's program ranging over several years 
of time? I ask this knowing that budgets are difficult. But 
this is not like building college dormitories one at a time in 
a grand master plan. Here we have a sense of urgency with 
regard to al-Qaeda, or terrorists getting their hands on 
fissile material or even spent fuel, or dirty bombs, quite 
apart from nuclearization.
    Why is the plan not one in which this happens in a fairly 
short timeframe? Can you explain, if it is not going to happen, 
why not? What can this committee do, and what can our 
colleagues do, to tighten that timeframe, to ensure that the 
world gets its hands on the material, secures it, makes as 
certain as possible that proliferation does not occur from all 
these remote regions?
    Mr. Brooks. Yes, sir. Well, first of all I want to stress 
that we do obviously have a sense of urgency, and that is why 
we took fuel back, fresh fuel back from Romania, Bulgaria, and 
Libya within the last year.
    The research reactors that are at issue are reactors that 
serve legitimate research purposes, and at the time, they could 
only serve those purposes with fuel that is essentially highly-
enriched uranium. For about one-third of the existing reactors, 
that is still true. The United States, for example, had 22 such 
reactors. We converted 11 of them. Six more are scheduled for 
conversion. There are five that do not have a design which will 
allow the research objectives to be met with LEU fuel, low 
enriched uranium fuel.
    So the first reason why it is going to take some time is 
that for some subset of these reactors we have got an R&D 
challenge. This is not a situation where there is something in 
a warehouse somewhere and all we have to do is demonstrate the 
will to go get it. This is a case where we have to provide a 
technology to convert research reactors.
    Second, there have been bureaucratic problems. To be fair, 
some of them have been here.
    We just signed the agreement with the Russian Federation. 
Some of these research reactors originally came from Russian 
designs, some from U.S. design, and the fuel will go back to 
the country where it belongs. We have just signed the 
government to government umbrella agreement with the Russians. 
The Russians are completing their equivalent of the 
environmental impact statement process.
    So we are pushing to expedite these things. Then obviously 
we have to target the most vulnerable and most dangerous 
material first. So we expect to have all fresh fuel back to 
Russia by 2005. We expect to have all Russian spent fuel back 
by 2010. Some of that is just practicality, and so the way we 
deal with the sense of urgency is to focus on the most 
vulnerable material first, sure.
    The Chairman. That is important for us to understand. You 
are going to countries or facilities that presumably want to 
continue with their research. So what you are saying is that we 
really need to work with them to find a new design for their 
equipment that can somehow function on something other than 
highly enriched uranium in order to relieve the HEU from them.
    Mr. Brooks. Yes, sir.
    The Chairman. That is a challenge. You say there are still 
five situations in our own country that require this kind of 
redesign.
    The reason I asked the question is that there will be some 
close examination of that timetable. I appreciate 2005, 2010 is 
a reasonable time, but the reason that we are discussing this, 
and why the President has gone into the PSI program and other 
related programs, is the urgency in the war against terrorism. 
You know, we are very hopeful that the terrorists, and whoever 
is after these materials this, will have the same patience and 
timetable as we have. Yet we really cannot take that for 
granted.
    Mr. Brooks. That is why it is also important in the interim 
to continue our efforts to improve security. One of the reasons 
people focus on research reactors is that they are inherently 
in academic settings where security is not the first thing that 
people think of. I referred to, in my statement, our effort to 
secure those materials. Some of those materials are in fact 
materials that are stored at research reactors. So we have to 
approach this problem on a variety of fronts.
    The Chairman. Precisely. Now, in your statement, you 
pointed out that a certain percentage of these have some degree 
of security. Granted we could not redesign the whole machine, 
but we could do the security more rapidly, could we not? What 
is the hangup there in terms of saying, if there are 24 of 
these places, by golly, by the end of 2004 we will have 
security around it so they cannot get out?
    Mr. Brooks. Well, most of them will have. And once again, 
the problem with this is we really have to look country by 
country. Some, for example, of the U.S.-designed research 
reactors are in countries which have perfectly adequate 
security, security comparable to what we would employ. That is 
why they tend to be at the end.
    But I think we are trying very hard to expedite security, 
but more importantly we are trying to get the material back and 
the cores converted.
    The Chairman. Are regular reports going to be made of this? 
People like ourselves are deeply interested in how the 
benchmarks are being met. Unless we have hearings of this 
variety from time to time and everybody comes up, why, somehow 
it gets lost in translation. This is so important. What kind of 
reporting will you have?
    Mr. Brooks. Well, we obviously have a good deal of internal 
reporting. I had not, until this moment, thought about the best 
way to make sure that the appropriate committees of Congress 
were informed. But obviously we want to do that. Let me take 
that away and figure out a good mechanism.
    The Chairman. Yes, I think that both of our staffs would 
like to do that, to try to have a working relationship so that 
we will be cognizant of this and can commend it as it occurs. I 
say this because we have had some difficulty legislatively over 
the last 10 years as new Members come into the Congress. They 
do not understand what all this is about, and they wonder, why 
are we authorizing money and people and appropriations?
    Until last year, as you know, because you were intimately 
involved for 10 years, the Cooperative Threat Reduction Act 
money could not be spent beyond the confines of the former 
Soviet Union, almost as if spending it outside would be a 
disease that would spread. Now we have a situation in which $50 
million of the sum could be hypothetically spent somewhere 
else, but this is hardly adequate, given the global reach the 
President is now talking about, and given what you have been 
discussing with the G-8.
    Granted, there are different committee jurisdictions. While 
we are thinking of the benchmarks on what occurs with Secretary 
Abraham's problem, we also need to think together about the 
kind of financial requirements and the geographical 
requirements that we have to have in order to fight a global 
war against terrorism, not just something confined to the 
former Soviet Union.
    Mr. Brooks. Mr. Chairman, I can assure you that if we find 
that we are being inhibited from doing what is right because of 
outdated legislative provisions, we will be vigorous in seeking 
to have those provisions changed. In fact, the example of 
spending CTR funds outside the former Soviet Union is an 
excellent example that will, for reasons I prefer not to go 
into in an open hearing, benefit us.
    The Chairman. Let me just say, having been critical of the 
administration, I would like to commend the fact that that 
change would not have occurred without calls that were 
initiated by the President, and executed by Condoleezza Rice, 
and the Secretaries of State and Defense. Something that may be 
a no-brainer, namely, that we ought to be able to spend money 
beyond the Soviet Union, took all of this horsepower with 
Members of Congress, who shall remain nameless and who finally 
did the right thing.
    Senator Biden.
    Senator Biden. Thank you.
    I would like to pursue that if I may. And I realize I am a 
little pedantic here. If I could approach this like I think the 
average American, if focused on this, would approach it, I 
assume, Mr. Ambassador, you have somewhere within your office, 
your extended office, a list of all the places we know where 
there is material that, if it were absconded, sold, or stolen 
in some way, being repetitious here, and got into the hands of 
the wrong people could pose a danger to the United States. 
There must be some comprehensive list, a little bit like, if I 
can think about it, you know, in an election we go down every 
precinct, look at every single precinct in the State. We break 
it out into detail, and precincts are as small as 500, 700 
voters, and we break it all out.
    Then we go back and we prioritize and we say, a little bit 
like you suggested, we say that, well, in some countries where 
we the United States were part of, participating in the 
project, produced the material, there is more adequate security 
than other places. So I assume you rank them. You rank the most 
urgent threats. You know, there is--if I can vastly 
oversimplify it, it is a little bit like when General Abizaid 
said there is 820,000 tons of munitions lying around Iraq in 
munition dumps that are not guarded. I mean literally, no 
guards, no personnel, no anything; we fly a helicopter over it 
at night with night vision goggles to see who is going in and 
out.
    So I am sure you have--I am not sure. You do have that kind 
of comprehensive list?
    Mr. Brooks. Yes.
    Senator Biden. OK, No. 1. No. 2, are they ranked or rated 
in orders of the greatest danger that they pose in terms of the 
greatest risk?
    Mr. Brooks. Yes, but that is not as precise a science as--
--
    Senator Biden. No, no. But you may--again, I am not 
questioning your judgment. You would know better than I. It may 
be a tossup. You rate all of them that there are these ten 
sites that are about the same risk. I am not suggesting that 
they have to be----
    Mr. Brooks. They are ranked in priority, but priority 
covers not just risk but ability. For example, I prefer not to 
get into specific countries, but there is a country that for a 
long time for a variety of reasons has ranked very high, but it 
is only recently that the political conditions have been--well, 
to take an obvious example, if we had been having this hearing 
a year ago, the research reactor fuel in Libya would rank very 
high on my priority list, but I would not have been able to do 
anything about it. Now we can and we have.
    So it is a combination of the risk and the ability.
    Senator Biden. And the access, OK.
    Now, do you think, in addition to that, take these sites 
both inside of Russia and outside of Russia and do you have a 
sense of, purely from a security standpoint, what security 
measures, had you access to the sites, you would recommend to 
the host country that they employ? Do you do that? Is it that 
specific?
    Mr. Brooks. Yes, sir.
    Senator Biden. OK. Now, then do you total up the amount of 
money it would require to do all the things that you would 
recommend be done to secure the material while we are working 
on whether or not we are able to gain access to it, convert it, 
destroy it, possess it?
    Mr. Brooks. Yes, but I am not sure we do it in quite the 
systematic approach that you are suggesting. We have been urged 
frequently to provide a metric which would allow us and you to 
decide how to balance a dollar spent on security in country x 
with a dollar spent on moving fuel back in country y. We have 
had, while recognizing the desirability of that, we have had 
extraordinary difficulty in convincing ourselves we know how to 
do that.
    Senator Biden. Well, I am not asking that question. I am 
not even asking that question, which is obviously a more 
complicated question and a more complicated, to use you term, 
matrix, to figure out how that is. I just want to know--what I 
am driving at here is there is very little liability, although 
some liability, risk, attendant to an American dollar being 
spent by hiring an American contractor, which is usually the 
case, to go to a Russian facility or a Ukrainian facility and 
build a fence around the facility. We do things as simple as 
that, that people out here should know.
    Mr. Brooks. First of all, if I may, Senator, most of the 
actual work, in part because of urging by Congress and in part 
because of the host nation, is done by host nationals. But I 
must say I do not believe that my colleagues in business would 
necessarily accept the view that going and operating in some of 
these countries does not expose them to liability.
    Senator Biden. Well, they may not, but I do not care what 
they think. Look, some of the things, which I will not go into 
detail in this open hearing, there are some facilities we have 
actually seen and photographed and you have discussed with us 
and the chairman has reported on, that literally lack the most 
rudimentary security, the most rudimentary security.
    What I would like for the record is to ask the question, 
whether it is in a closed hearing or in an open hearing, within 
the next month for you to give us a listing of all the 
facilities worldwide that you think have security problems that 
you have identified; and to the extent that you have rated 
them, how you have rated them; and to the extent that you have 
a sense of--and you may not in all of them--what security would 
be required to enhance our sense of greater security, that it 
would be worth spending the money; and then us to know what the 
costs associated with that would be.
    Because one of the things I have found--and it is no 
different in your agency than it was in the FBI when I was 
chairman of the Judiciary Committee. They would come up and 
tell us that they had targeted all of these--not targeted; 
wrong expression--they had observed the various--I will go back 
20 years--the various Cosa Nostra families, and these are the 
families that they knew were doing what and how, until I 
literally got them to come up and lay out on a piece of paper 
what it was and what they would like to do and how many agents 
it required to focus, guess what, we were only able to focus on 
9 percent of them.
    After it was over, we helped them out. We helped them out 
once they identified it and we gave them all the money they 
needed, and they hired enough agents to focus on all of them, 
because we ought to be able to walk and chew gum at the same 
time.
    One of the things, just so you know, a sense I get, maybe 
not fair, is you all are not as excited about telling us what 
it would--if you had a blank slate, if I said to you you have 
all the money you need, you have got unlimited dollars, and you 
go out now and start on the security side to reach agreements 
without any new liability agreement being reached, reach 
agreements with all those countries that have sites, what could 
you do if you had unlimited resources, unlimited manpower, to 
do that?
    Because I have no sense of this now. I mean, I have a 
foreboding sense of the degree of the exposure we have to risk. 
I have a foreboding sense of how many sites are really left not 
guarded very well at all in Russia, let alone around the world. 
So I would like to get my hands around that.
    Maybe what I should do, Mr. Chairman, in order for your 
consideration, is to more precisely formulate the question in 
writing, so you know what I am looking for here, so that we 
have a record, classified or otherwise, sitting here that we 
can look and say, OK, if in fact this--because, look, I see the 
yellow light is on and I will end. The reason I say this is 
there is not an appreciation on the part of very informed men 
and women in both political parties in the Congress or the 
public at large as to the extent of our, in my view, the extent 
of our vulnerability that we face.
    There is a generic sense out there in the public that when 
the wall came down so did the threat of nuclear exchange, 
therefore the threat of a nuclear weapon being used or a 
nuclear material being engaged has diminished precipitously. 
Nobody in our constituency out there--for example, when you 
helped get that weapon that I asked the laboratories to see if 
they could construct, you know how many Senators showed up for 
the briefing? Four out of 100.
    And I raised at a caucus and it was raised at the 
Republican caucus, I think--I cannot guarantee that--that we 
have another meeting, secure meeting. I even considered whether 
we should call for, which you are allowed to do, any Senator 
can do, a closed hearing of the U.S. Senate for people to get a 
sense of this. A total of nine people showed up, nine, n-i-n-e. 
So this ain't just the administration--or not ``just''; this is 
just not people outside the Congress.
    Nine United States Senators actually took the time to come 
up, observe this weapon, and listen to the five leaders, 
including the Nuclear Regulatory Agency. The heads of every 
single one of those agencies sat there in that room. If I am 
not mistaken, I think maybe it was not even nine. It may have 
been only six or seven.
    The Senators who showed there were stunned. Their jaws 
dropped. They actually did, for example, with this weapon--and 
they showed us; I will not go into it--exactly how much fissile 
material. They showed us--they did a mockup of the kind of fuel 
that would be needed and how much it weighed and how big in 
size it was and so on and so forth. They said, if you had this 
much fuel in this particular thing we have put together, you 
would have taken down the World Trade Towers, if I am not 
mistaken, in I think it was four, f-o-u-r, seconds and 100,000 
some people would have been killed.
    They put on a big screen, because of the prevailing winds, 
what would have happened with the fireball that would have 
followed, the storm, the firestorm that would have occurred, 
the rest of Manhattan that would have burned, and plus the 
number of people. They had this whole scenario.
    I watched my colleagues, particularly the two Senators from 
New York who were there. They were agog. It was like, I watched 
the looks on their face.
    What I am trying to get at here is there is not only not 
the level of urgency at the administration level, there is not 
a sense of urgency here either. So I think we need specifics. I 
think we need details to be able to say, look, this facility--
and I would conclude with this, Mr. Chairman.
    Until you lay it out for the President of the United States 
in graphic detail a particular facility, I think it is 
southwest of Moscow, that had 1,900,000 some artillery shells 
in that facility, until the chairman--and I guess I was a bit 
of an instigator--laid out in detail physically how they sat in 
a rack, how big they were, what damage they could do, what 
security rested around that facility--the President at one 
point looked up at Dr. Rice and said, looked around at the 
chairman who was sitting on the couch, and said: ``Is that 
true?''
    Let me be more precise. Without inflection, he said: ``Is 
that true?'' And Dr. Rice said: ``Yes.'' And the Vice President 
said, well, that may be fungible money; you know, the argument 
that is made that if we do that and help the Russians build a 
facility to get rid of those artillery shells they may do other 
bad things or something.
    The President sat and listened. You could see it register 
in his eyes. In 2 weeks, I think it was about 2 weeks, all of a 
sudden the money was made available.
    We need a sense of urgency here because me personally, my 
family specifically, my grandchildren surely, they are really 
at risk, and it ain't going to be from an intercontinental 
ballistic missile fired from North Korea.
    Mr. Brooks. Senator, may I make some points in response?
    Senator Biden. I will formulate a question. I yield the 
floor and I am happy to hear your response.
    Mr. Brooks. First, we do have such an assessment. We will 
be happy to provide it to you as long as you let me provide it 
in a classified forum. For fairly obvious reasons, we are not 
interested in an unclassified assessment of where it would be 
interesting to go look for poor security.
    Senator Biden. With the chairman's permission, I wonder 
whether we might be able to in the next week set up something 
where any of the members of this committee who are--I am happy 
to do it all by myself, but others may be interested as well.
    Mr. Brooks. We are at the disposal of either you personally 
or the Chair and the committee.
    Senator Biden. I thank you.
    Mr. Brooks. I do want to make a point about sense of 
urgency. In long, complex problems, the people who are working 
always think they are going faster than the people who are 
watching them think they are, and I recognize that and the 
truth is probably somewhere in the middle. But I want to say in 
the strongest possible terms that I detect within my colleagues 
in the administration, both at senior levels and particularly 
within my own Department, no lack of urgency.
    I believe that we are seized with the problem for exactly 
the reason you mention. That is not to say there are not ways 
we can do it better, but I do not believe it is an accurate 
assessment that there is no sense of urgency.
    Senator Biden. I take that at its face. In full disclosure, 
this Congress is not seized with the same sense of urgency, in 
my view, and we may need some help in seizing them. We may need 
some help, because apparently we share the same degree of the 
sense of urgency.
    Mr. Brooks. Your example of what can be done if you had the 
material is right and I can show you more examples and it would 
terrify you.
    The Chairman. Thank you very much. Thank you, Senator 
Biden.
    Let me just suggest that we try to formulate and have our 
staffs formulate the questions that we want Secretary Brooks 
and his colleagues to discuss with us, to frame these issues. 
Senator Biden has indicated one set of questions, a finite list 
of where problems may be and how we are addressing them.
    We might also then include, as we finally get to those 
remote situations, precisely how we are dealing with the finite 
problems in countries where we now have dealings. It should be 
a classified briefing. I think if we structure the questions in 
a framework, we will have a very good congressional response. 
Therefore, I would say, in the next few days or so, please 
anticipate some overture from our committee. We would very much 
appreciate the support of you and your colleagues in helping us 
in this respect.
    I would just say parenthetically that over the years both 
the legislative and the executive branches have stimulated each 
other. If there were flagging spirits in these situations, this 
has been reciprocal.
    Senator Nelson.
    Senator Nelson. Well, Mr. Chairman, I want to be part of 
that stimulative process. Continuing on this theme of a sense 
of urgency or lack thereof, I am drawn in my memory to sitting 
here at this table with Senator Baker and Mr. Cutler and their 
testimony, imploring us and imploring the administration that 
there was no more single important issue to address than 
proliferation, and saying that it would cost in the range over 
a 10-year period of $24 to $30 billion.
    Yet, as I read the statement coming out of the G-8, we 
recommend ourselves to raising up to $20 billion for the Global 
Partnership through 2012. Now, that is $10 billion from the 
United States and $10 billion from the rest of the world. The 
United States is already spending about a billion a year, so 
that is actually less than a billion a year when you consider 
inflation. And does anybody really believe that the rest of the 
world, of the G-8, is going to come up with $10 billion by 
2012?
    What sayeth you?
    Mr. Bolton. I think that is one of the reasons that we have 
sought to expand the number of contributing countries to the G-
8 partnership. As I indicated earlier, for example, in the case 
of Japan, whose pledge toward the $20 billion target is not 
what we would consider to be appropriate, given its GNP, they 
have not made a pledge at that level because their Diet would 
not approve additional funding until they got their initial 
problems with the Russians overcome. We think we are moving in 
that direction and we are continuing to press for it.
    I might say, the $20 billion figure was what the G-8 
countries agreed to. When the President announced the 
initiative, he said $20 billion should be a floor and that was 
the position he reiterated as recently as his February speech 
at the National Defense University. So that has been our 
position from the beginning, not that $20 billion is a ceiling 
internationally, but the $20 billion is a floor.
    Mr. Brooks. I also would point out, going back to your 
reference to the Baker-Cutler report, that it is important to 
compare apples to apples. The G-8 numbers that we speak of are 
money that is spent in the countries of the former Soviet 
Union. That is not all the United States is doing to counter 
proliferation. Take my own agency for an example. Less than 
half of our total budget is scored against the $1 billion 
commitment the United States has.
    So one reason for the apparent difference between a Baker-
Cutler like analysis and where we are going in G-8 is that they 
are comparing different things. I invite your attention to the 
fact that when I mentioned the problems that were slowing us up 
I did not mention money. Historically, that has not been--and 
to be fair, because of the very strong support we have gotten 
from the Congress--that has not been the thing that has 
prevented or slowed progress in our work in the Russian 
Federation. It has been these other issues.
    Senator Nelson. So the agreement made in Canada in 2002, 
where the G-8 leaders agreed to establish a long-term program 
and it was 10 plus 10 over 10, that was only to be spent in 
Russia, is that what you said?
    Mr. Bolton. In the states of the former Soviet Union. So 
when we count on the $20 billion, we are looking only at the 
republics of the former Soviet Union. The agreement that was 
made at Sea Island to expand the reach of the Global 
Partnership activities would be money in addition to the $20 
billion that is still targeted to the former Soviet Union, and 
that is consistent with the amendment that Senator Lugar 
mentioned a few minutes ago authorizing in that case CTR money 
to be spent in countries other than the former Soviet Union, 
which we intend to do.
    Senator Nelson. Let me make sure I understand. What you 
just said is that the agreement just announced at Sea Island 
was in addition to the 10 plus 10 over 10?
    Mr. Bolton. The G-8 agreed at Sea Island to use the Global 
Partnership to coordinate these kinds of activities in states 
other than the former Soviet Union, but did not put a dollar 
figure on that. The agreement we have on the $20 billion is 
that is to be expended in programs in the states of the former 
Soviet Union, so addressing Iraq or Libya or Albania or other 
countries, that would be Global Partnership resources above the 
$20 billion.
    Senator Nelson. So basically, according to Baker-Cutler 
then we have got a deficit in the other parts of the world 
outside of the old Soviet Union of a need over 10 years of $10 
billion?
    Mr. Bolton. I do not calculate it that way, but I should 
defer to Linton on this because I think what he is saying is 
that of his budget roughly only half of it counts against the 
$20 billion for the former Soviet Union. I believe that is 
partially--I know that is true in part for the State Department 
programs, which are smaller; not necessarily true for 
Department of Defense programs.
    Mr. Brooks. For example, Senator, we spoke earlier of 
things like the Megaports Initiative, the work we are doing in 
Piraeus, Greece, the work we are doing in Rotterdam. Those are 
important things, but they do not count against the previous G-
8 commitment. The work that we are doing to repatriate U.S.-
origin fuel and to convert U.S.-origin reactors is important 
work, but it does not count against the G-8. The work we are 
doing to improve export control in some 70 countries, to 
improve security in a number of countries, is important work, 
but it does not count against this total.
    All I am saying is that the Baker-Cutler report, which I 
keep in my office and read from time to time, was a call to 
action and it was an important call to action. I do not think 
that Senator Baker or Mr. Cutler would believe that it was 
intended to be a very detailed budget blueprint. I am simply 
urging that we do not--that the measure of merit ought not to 
be what we are spending; it is what we are accomplishing.
    But if you evaluate urgency by how much we spend, we are 
spending more on the broad nonproliferation problem than the 
specific subject of this hearing, which is the Global 
Partnership. That was the only point I was trying to make, sir.
    Senator Nelson. Then, Mr. Chairman, I will welcome that 
detail. That will be classified so that we can see exactly and 
determine for ourselves if the sense of urgency is there, as 
you as our leader certainly think it should be.
    The Chairman. We will welcome, as always, your 
participation, Senator Nelson. I appreciate your raising these 
questions.
    I have one other question. It relates to the Nuclear 
Suppliers Group action plan that was adopted at Sea Island. I 
believe it calls specifically for amendments to the Nuclear 
Suppliers Group guidelines, but only until such changes can be 
made to ensure that participating states stop the transfer of 
equipment, enrichment processing equipment and technologies, to 
additional states.
    As I understand it, this applies for one year--or does the 
one year apply to only parts of this? The reason I ask is 
obviously it has some pertinence to the issue in Iran, but also 
to other situations. Could you explain, Secretary Bolton, more 
about the importance of this, as well as its limitations, and 
what we will have to do to followup with our allies?
    Mr. Bolton. Right. Mr. Chairman, the President's original 
proposal was that enrichment and reprocessing technology and 
equipment not be supplied in the future to any country that did 
not already have full-fledged enrichment and reprocessing 
capabilities.
    The Chairman. Unlike the situation we are discussing where, 
for humanitarian purposes, in the past we sent highly enriched 
uranium to laboratories. But we would not do that now.
    Mr. Bolton. We would, with respect to enrichment and 
reprocessing, we would simply freeze it with the countries that 
had it. The idea there was that that was a clear black line 
distinction between the countries that currently possess the 
capability and everybody else.
    Now, another part of that suggestion was to continue the 
possible benefit of the peaceful uses of nuclear energy, that 
we would through a market-based mechanism be able to supply 
fuel to countries that wanted it for civil nuclear programs, 
the reason being that it is the enrichment and reprocessing 
capability that allows states to pursue nuclear weapons under 
the guise of a peaceful use program. If they want to have 
nuclear power, that is fine, but there does not seem to be any 
need to expand beyond the number of countries we have now in 
enrichment and reprocessing capabilities.
    That is a very far-reaching proposal, revolutionary in the 
business of nuclear energy. There are many states that still do 
have aspirations to have enrichment and reprocessing 
capabilities, that obviously would be precluded under that 
proposal. I think while people absorbed the implications and 
looked at whether the President's precise proposal or some 
variation of it might be acceptable, what we essentially got 
the G-8 to agree to was to freeze the status quo for a year, 
not to launch any new initiatives. That is a kind of do no harm 
proposition, and that in itself is a significant step forward.
    The G-8 leaders also committed themselves to try and get 
agreement on what the final standards would be in a year, 
which, speaking of senses of urgency in these matters, is 
moving with lightning speed. We have some confidence we will be 
able to do that in the G-8 because we are succeeded in the 
presidency by the United Kingdom, which also treats these 
matters quite seriously. So basically in the next year we hope 
to take the President's very dramatic proposal in February and 
see if we can reach agreement at least in the G-8, and we are 
committed to trying to do that.
    But I think what we have achieved at Sea Island is that the 
leaders have said, for a year we are not going to do anything 
further that will exacerbate the situation, and that in and of 
itself is a substantial step forward.
    The Chairman. Well, I wanted to raise the question to 
underline the importance, as you have certainly illustrated, of 
this. As I understand, we are saying to a country, to use your 
thought of a black line, the rest of the world on a commercial 
basis is prepared to provide fuel for reactors and for other 
humanitarian and laboratory purposes, but not enriched fuel, 
highly enriched uranium, or the equipment necessary to take it 
from low to high.
    If you really have a legitimate problem of running your 
power plants for the country, or of providing research and so 
forth, you can do that on low enriched uranium, and that can be 
sold to you, as we are now selling low enriched uranium that 
has been the product of the highly enriched uranium that we 
took from Russia in the past, and we reconverted that. But if 
you are looking for the option of going into a nuclear 
weaponization program, we are going to say no, you cannot have 
that option.
    In the past, we gave people a lot of options--low enriched, 
high enriched, somewhere in between, and help with processing 
to get to that point. In layman's terms I tediously go through 
this, because many Americans are wondering what is so 
significant about all of this. Well, as you say, it is 
significant, enough that countries want to weigh this for a 
little bit and say, hang on here, in terms of our commercial 
interests. Other countries may have aspirations and say, well, 
our sovereign destiny is to have reprocessing ability, not that 
we ever want to build a nuclear weapon, but, by golly, as a 
nation state we want to be there potentially, for our own 
defense or for our own prestige or for whatever reasons we want 
to do this.
    As of this moment, in the G-8 we are saying no, that avenue 
is going to be closed. The leading countries of the world are 
saying, we will not help you. But the leading countries are 
also walking around this, with their parliaments and their 
experts, as they try to divine their interests and their 
foreign policies, even as they come together in G-8.
    Is this a rough approximation of where we are?
    Mr. Bolton. That is exactly where we are, and the agreement 
in the G-8 itself was a step forward, but we need to translate 
this into the nuclear suppliers group. Frankly, even in the 
nuclear suppliers group we are less worried about what those 
countries do than some other countries that are outside the 
NSG.
    What we are trying to do, though, is get agreement at the 
most important level and then translate it into various other 
organizations that have responsibility and get it accepted 
worldwide.
    The Chairman. Do you have any further comment, Secretary 
Brooks?
    Mr. Brooks. No, sir.
    The Chairman. Well, I thank both of you very much for your 
testimony, for your forthcoming responses. As we have related, 
we will be coming to you to try to formulate a constructive 
hearing that will be classified for members, so that we may all 
receive a more advanced education on the process, and be better 
informed as legislators.
    Thank you both. The hearing is adjourned.
    [Whereupon, at 11:42 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statement Submitted for the Record


                   Prepared Statement of Lisa Bronson

    Chairman Lugar, Senator Biden, Members of the Committee:
    Thank you for inviting me to discuss how the Department of Defense 
(DOD) Cooperative Threat Reduction (CTR) Program supports the G-8 
Global Partnership Against the Spread of Weapons and Materials of Mass 
Destruction.

                      COOPERATIVE THREAT REDUCTION

    It has been almost two years since this committee received 
testimony on this important subject. I would like to review some of the 
significant work accomplished since then:

  <bullet> In December 2003, the Fissile Material Storage Facility at 
        Mayak, Russia--some 7 years in construction--was completed and 
        certified by Russian regulators. The Mayak project will 
        consolidate and securely store more than 25 metric tons of 
        Russian weapons-grade plutonium.

  <bullet> In March 2003, construction on the Chemical Weapons 
        Destruction Facility (CWDF) at Shchuch'ye began after 11 years 
        of planning and negotiation. This facility will destroy all of 
        Russia's most proliferable nerve agent inventory. On March 18, 
        2003, Russia formally committed to complete the destruction of 
        all of its nerve agent weapons at Shchuch'ye.

  <bullet> As of December 31, 2003, six countries and the European 
        Union have pledged $69 million to CWDF infrastructure, as a 
        demonstration of their G-8 commitments, helping to ensure that 
        this key project can begin operations on schedule.

  <bullet> In February 2003, Russia signed the Nuclear Weapons Storage 
        Site Security Protocol, granting CTR unprecedented access to 
        help consolidate and secure decommissioned nuclear warheads.

  <bullet> DOD completed vulnerability assessments for six of these 
        sites and began designing comprehensive security upgrades for 
        each. The Russian Ministry of Defense (MOD) shortly will 
        designate the next ten sites for security enhancements. In 
        addition, CTR has procured and transferred to the MOD 123 
        ``Quick Fix'' fencing and sensor sets for installation at 
        nuclear weapons storage sites, including the six noted above. 
        The Quick Fix sets are designed to provide interim security 
        upgrades to individual weapons bunkers. In all, DOD expects to 
        provide comprehensive security upgrades at more than 32 long-
        term nuclear weapons storage sites, including Quick Fix and 
        more permanent measures. In coordination with DOD, DOE is 
        enhancing security at Russian MOD nuclear storage sites and is 
        installing the previously provided ``Quick Fix'' fencing as 
        necessary.

  <bullet> In 2003, Azerbaijan and Uzbekistan signed legal agreements 
        with us to provide the foundation for our WMD-Proliferation 
        Prevention Initiative (WMD-PPI). Ukraine recently signed its 
        agreement and Kazakhstan is ready to sign a similar agreement; 
        Georgia and Kazakhstan have supplied us with dangerous pathogen 
        samples as our Biological Weapons Proliferation Prevention 
        program moved forward.

  <bullet> In May 2003, we began destroying rail-mobile ICBM launchers 
        and missiles in Russia;

  <bullet> In Autumn 2003, we delivered 60 small-arms training sets and 
        1200 hand-held radios to support nuclear weapons storage 
        security forces at all 60 sites we believe to be active or used 
        for training;

  <bullet> In December 2003, we completed and commissioned systems to 
        enhance security at the Kizner and Planovy chemical weapons 
        storage sites in Russia.

    Since October 2002, CTR has helped deactivate another 332 Russian 
nuclear warheads and eliminate 48 ballistic missile launchers, 31 heavy 
bombers, another 3 ballistic missile submarines and 239 ballistic 
missiles.
    Our total threat reduction impact for strategic system eliminations 
since the founding of the program in 1992 now stands at:

  <bullet> 534 ICBMs eliminated (47 percent of CTR's goal);

  <bullet> 408 SLBM launchers eliminated (65 percent of CTR's goal);

  <bullet> 6302 warheads deactivated (67 percent of CTR's goal);

  <bullet> 27 ballistic missile strategic submarines (SSBNs) eliminated 
        (68 percent of CTR's goal);

  <bullet> 491 SLBMs eliminated (69 percent of CTR's goal);

  <bullet> 128 strategic bombers eliminated (83 percent of CTR's goal);

  <bullet> 702 nuclear-capable air-to-surface missiles eliminated (85 
        percent of CTR's goal);

  <bullet> 495 ICBM launchers eliminated (95 percent of CTR's goal);

  <bullet> 194 underground nuclear weapons test tunnels closed (100 
        percent of CTR's goal).

                     G-8 PROGRESS SINCE KANANASKIS

    The period since October 2002 has also been productive for the 
Global Partnership. The Kananaskis Summit offered an opportunity for G-
8 leaders to reinforce their long-term commitment to non-proliferation 
and launch a global partnership against the spread of WMD. The ten-year 
pledge of up to $20 billion for non-proliferation, disarmament, 
counter-terrorism and nuclear safety projects initially focused on 
Russia. Key priorities identified by Summit leaders were the 
destruction of chemical weapons; the dismantlement of decommissioned 
nuclear submarines; the disposition of fissile materials; and the 
employment of former weapons scientists. The CTR program is addressing 
the Kananaskis commitment in two key areas:

  <bullet> DOD has worked with G-8 countries handling ``general 
        purpose'' submarine dismantlement to make CTR-funded 
        infrastructure available for their use at certain shipyards. 
        CTR has maintained its focus on dismantling strategic 
        submarines only, and has continued to plan for elimination of 
        42 decommissioned Russian strategic submarines, total. However, 
        where there is excess capacity in the submarine dismantlement 
        infrastructure CTR has created, we have worked to make it 
        available to our Global Partners for non-strategic submarines.

  <bullet> In March 2003, construction began on the U.S.-funded 
        Chemical Weapons Destruction Facility for the elimination of 
        nerve agent at Shchuch'ye, Russia. In accordance with statute, 
        the President waived conditions limiting U.S. construction at 
        the facility. Use of this waiver authority is not taken lightly 
        by the Administration. Taking this action reflects the 
        Administration's commitment to helping solve the proliferable 
        nerve agent problem in Russia. We appreciate Congress's renewal 
        of the waiver authority for fiscal year 2005 and urge that it 
        be made permanent.

    Of particular interest to our international partners is the 
continuing work to construct the $1 billion Chemical Weapons 
Destruction Facility (CWDF) for nerve-agent-filled munitions at 
Shchuch'ye. Our Russian partners have increased funding from a few 
million dollars in 1997 to over $170 million per year. When completed 
in 2008, Shchuch'ye's elimination capacity could be approximately 850 
metric tons of nerve agent per year. With the addition of a second, 
Russian-built process building, a total of 1,700 metric tons of nerve 
agent could be destroyed per year.
    Several nations have worked with us on the Shchuch'ye project or 
are committed to do so. In particular, the United Kingdom announced in 
May 2003 its commitment to fund some $100 million in chemical weapons 
destruction projects in Russia, including Shchuch'ye. Similarly, Canada 
committed last year up to $240 million (Canadian) for chemical weapons 
destruction projects in Russia, including Shchuch'ye, and allocated $24 
million in 2003 for the Shchuch'ye rail infrastructure project. The 
Czech Republic, Italy, Norway, Switzerland and the European Union are 
also contributing to the Shchuch'ye project.
    In November 2003, the United States, Russia, the United Kingdom, 
and Canada, agreed to establish the Shchuch'ye Coordinating Working 
Group (SCWG). The group's objectives are to exchange policy and 
programmatic information related to the facility's construction and to 
coordinate CWDF-related industrial infrastructure projects. The group 
meets regularly, including last month on the margins of the U.K.-hosted 
International Chemical Weapons Destruction Conference. We believe that 
the working group is an excellent mechanism for turning the important 
international commitments into actual threat reduction, to avoid 
duplication of effort, clarify partner responsibilities, and generate 
outreach efforts for additional commitments.

               ELIMINATING WMD AT THE SOURCE--AND BEYOND

    DOD, through the CTR program, traditionally dealt with weapons of 
mass destruction at their sources in the former Soviet states. Since 
October 2002, we have made considerable progress implementing a new 
initiative to address potential smuggling of WMD through the porous 
borders of the non-Russian former Soviet states.
    The threat of WMD smuggling is not speculative. Last month, 
Ukrainian security forces apprehended three men with two containers of 
highly radioactive material (cesium 137). Earlier this year, Ukrainian 
authorities arrested a man trying to take nearly a pound of uranium 
into neighboring Hungary. Previously, three Russians were apprehended 
in Ukraine for allegedly trying to sell strontium-90 and plutonium-239. 
We take these responses to such incidents, along with others in other 
countries, as evidence of the broad recognition that WMD security is 
something for which each state must be responsible. We have been 
encouraged by the commitment to improved WMD border security in 
Kazakhstan, Ukraine, Uzbekistan and Azerbaijan.
    The Cooperative Threat Reduction Program's WMD-Proliferation 
Prevention Initiative is designed to help these states build self-
sustaining capabilities to police their own borders against WMD 
smuggling. DOD has been coordinating closely with State, DOE, the U.S. 
Coast Guard and other USG agencies to plan for provision of equipment, 
logistics support and training to agencies in recipient governments 
that are specifically assigned border security or WMD enforcement 
missions. Necessary legal agreements to govern this assistance have 
been signed between DOD and executive agents in Azerbaijan, Uzbekistan 
and Ukraine, with Kazakhstan nearly complete.

                               CONCLUSION

    At Sea Island, President Bush and his G-8 colleagues again 
``recognized the proliferation of weapons of mass destruction and their 
delivery systems, together with international terrorism as the pre-
eminent threat to international peace and security.'' It is in this 
spirit that we are continuing to manage CTR's work to eliminate the 
strategic legacy of the cold war, as well as focusing the program's 
expertise on new threats. We will continue to pair CTR's decade of 
experience with our new partners in the effort to eliminate weapons of 
mass destruction and respond to new proliferation challenges.

                                 <all>

</pre></body></html>
